No. 18-___
IN THE

Supreme Court of the United States
IMPERIUM IP HOLDINGS (CAYMAN), LTD.,
Petitioner,
v.

SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
ELECTRONICS AMERICA, INC., SAMSUNG
SEMICONDUCTOR, INC.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

PATRICK STRAWBRIDGE
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548

JEFFREY M. HARRIS
Counsel of Record
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(202) 321-4120
jeff@consovoymccarthy.com

Counsel for Petitioner
(Additional Counsel Listed on Inside Cover)

ALAN M. FISCH
R. WILLIAM SIGLER
FISCH SIGLER LLP
5301 Wisconsin Avenue NW, 4th Floor
Washington, DC 20015
(202) 362-3500
Counsel for Petitioner

i
QUESTION PRESENTED
This case implicates fundamental questions
about the proper roles of the jury and the court. After
a six-day trial, a jury found that Respondent Samsung
willfully infringed Petitioner Imperium’s patent
rights. In reaching that verdict, the jury found that
Samsung had failed to carry its burden of proving by
clear and convincing evidence that the relevant patent
claims were invalid. Following post-trial proceedings,
including an award of treble damages plus attorney’s
fees in light of Samsung’s willful infringement and
litigation misconduct, the district court entered
judgment for over $22 million on the patent claims at
issue.
The Federal Circuit reversed, however, holding
that Samsung was entitled to judgment as a matter of
law on invalidity because the jury was required to
accept the purportedly credible, “unrebutted,” and
“uncontradicted” testimony of Samsung’s paid expert.
The court of appeals reached that holding only after
performing its own assessment of Samsung’s expert’s
credibility and ignoring numerous other facts that
could have led a reasonable jury to discount the value
of this witness’s testimony.
The question presented is whether an appellate
court may reverse a jury verdict based on its own view
that expert testimony was credible, “unrebutted,” and
“uncontradicted,” or instead whether the Seventh
Amendment requires the jury to make determinations
about credibility and the weight of the evidence in
determining whether a party has properly carried its
burden of proof.

ii

PARTIES TO THE PROCEEDING,
RULE 29.6 STATEMENT, AND
STATEMENT OF RELATED CASES
Petitioner Imperium IP Holdings (Cayman), Ltd.
was the plaintiff in the district court and
appellee/cross-appellant in the Federal Circuit.
Petitioner has no parent company, and no publicly
held company owns 10% or more of its stock.
Respondents are Samsung Electronics Co., Ltd.,
Samsung Electronics America, Inc., and Samsung
Semiconductor, Inc. Respondents were defendants in
the district court and appellants/cross-appellees in the
Federal Circuit.
Pursuant to Rule 14.1(b)(iii), Imperium provides
the following statement of related cases:
There is ongoing litigation between Imperium and
Samsung over whether Samsung’s use of the patented
technologies at issue here was a289uthorized by a
separate license agreement between Sony and
Imperium. See Samsung Electronics Co., Ltd. v.
Imperium IP Holdings (Cayman), Ltd., No. 1:15-cv1059-CFC (D. Del.). Similar issues were litigated in
this case but are not directly at issue in this petition.

iii

TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDING, RULE
29.6 STATEMENT, AND STATEMENT
OF RELATED CASES .......................................... ii
TABLE OF APPENDICES ........................................ v
TABLE OF AUTHORITIES ..................................... vii
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 5
JURISDICTION ......................................................... 5
CONSTITUTIONAL PROVISION
INVOLVED ........................................................... 5
STATEMENT OF THE CASE ................................... 6
A.

History of the ’884 Patent ............................. 6

B.

District Court Proceedings ........................... 7

C.

The Federal Circuit’s Decision ................... 10

REASONS FOR GRANTING THE
PETITION ........................................................... 12
I.

The Federal Circuit’s Decision
Conflicts With This Court’s
Precedents And The Decisions Of
Several Other Circuit Courts ..................... 12

iv

II.

A.

The Federal Circuit’s decision
disregards this Court’s
jurisprudence about the proper
roles of the jury and the court ............ 12

B.

The Federal Circuit’s decision
conflicts with the decisions of
several other circuits .......................... 18

C.

There were abundant grounds
on which the jury could have
found Samsung’s testimony to
be unreliable or not credible ............... 21

The Federal Circuit’s Decision Has
Significant Implications For Patent
Rights Nationwide ...................................... 25

III. If The Court Reverses The
Judgment Below, It Should
Reinstate The Award Of Attorney’s
Fees.............................................................. 31
CONCLUSION .......................................................... 32

v

TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, FILED
JANUARY 31, 2019 ........................................................1a
APPENDIX B — OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, FILED
JANUARY 31, 2019 ......................................................16a
APPENDIX C — MEMORANDUM
OPINION AND ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
TEXAS, SHERMAN DIVISION, FILED
APRIL 3, 2018 ...............................................................18a
APPENDIX D — MEMORANDUM
OPINION AND ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
TEXAS, SHERMAN DIVISION, FILED
SEPTEMBER 13, 2017 ...............................................39a
APPENDIX E — MEMORANDUM
OPINION AND ORDER OF THE
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
TEXAS, SHERMAN DIVISION, FILED
APRIL 27, 2017 .............................................................52a

vi

APPENDIX F — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL
CIRCUIT, FILED APRIL 18, 2019 ....................... 100a
APPENDIX G — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL
CIRCUIT, FILED APRIL 18, 2019 ....................... 102a

vii

TABLE OF AUTHORITIES
Page(s)
Cases
Aetna Life Ins. Co. v. Ward,
140 U.S. 76 (1891) ........................................... 2, 14
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986) ....................................... 13, 18
Apple v. Samsung,
839 F.3d 1034 (Fed. Cir. 2016) ........................... 22
Congress & Empire Spring Co. v. Edgar,
99 U.S. 645 (1878) ............................................... 13
Davoll v. Brown,
7 F. Cas. 197 (D. Mass. 1845). ............................ 27
Dayton Power & Light Co. v.
Pub. Utils. Comm’n of Ohio,
292 U.S. 290 (1934) ....................................... 13, 17
Elzig v. Gudwangen,
91 F.2d 434 (8th Cir. 1937) ................................. 19
Festo Corp. v.
Shoketsu Kinzoku Kogyo Kabushiki Co.,
535 U.S. 722 (2002) ....................................... 27, 28
Forsyth v. Doolittle,
120 U.S. 73 (1887) ............................................... 13
Guy v. City of San Diego,
608 F.3d 582 (9th Cir. 2010) ............................... 20

viii

Hassan v. Stafford,
472 F.2d 88 (3d Cir. 1973) .................................. 20
Hunter v. Bryant,
502 U.S. 224 (1991) ............................................. 31
James v. Campbell,
104 U.S. 356 (1882) ............................................. 27
Joseph v. Donover Co.,
261 F.2d 812 (9th Cir. 1958) ......................... 21, 23
Kewanee Oil Co. v. Bicron Corp.,
416 U.S. 470 (1974) ........................................ 27-28
Mazer v. Stein,
347 U.S. 201 (1954) ............................................. 26
Microsoft Corp. v. i4i Ltd. Partnership,
564 U.S. 91 (2011) ................................... 15, 16, 28
Mihalchak v. Am. Dredging Co.,
266 F.2d 875 (3d Cir. 1959) ................................ 20
NLRB v. Howell Chevrolet Co.,
204 F.2d 79 (9th Cir. 1953). ............................ 4, 21
Powers v. Bayliner Marine Corp.,
83 F.3d 789 (6th Cir. 1996) ............................. 3, 19
Quock Ting v. United States,
140 U.S. 417 (1891) ................................... 2, 13, 14
Radio Corp. of Am. v. Radio Eng’g Labs.,
293 U.S. 1 (1934) ................................................. 15
Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000) ....................................... 17, 18

ix

Sartor v. Arkansas Nat. Gas Corp.,
321 U.S. 620 (1944) ............................................. 13
The Conqueror,
166 U.S. 110 (1897) ....................................... 13, 17
United States v.
0.161 Acres of Land in Birmingham, Ala.,
837 F.2d 1036 (11th Cir. 1988) ........................... 19
Warner-Jenkinson Co. v. Hilton Davis Chem. Co.,
520 U.S. 17 (1997) ............................................... 28
Webster v. Offshore Food Serv.,
434 F.2d 1191 (5th Cir. 1970) ....................... 17, 22
Willis v. State Farm Fire and Cas. Co.,
219 F.3d 715 (8th Cir. 2000) ............................... 19

Statutes and other Authorities
U.S. Const., art. I, § 8, cl. 8 ...................................... 26
Seventh Amendment to the
U.S. Constitution ...................................... 5, 12, 18
28 U.S.C. § 1254(1) ..................................................... 5
35 U.S.C. § 282(a) ..................................................... 15
35 U.S.C. § 285 ............................................... 5, 10, 31
S. Ct. R. 10(a) ............................................... 12, 21, 22
Abraham Lincoln, Second Lecture on
Discoveries and Inventions
(Feb. 11, 1859) ..................................................... 26

x

Adam Mossoff, Patents as Constitutional
Private Property: The Historical
Protection of Patents Under The Takings
Clause, 87 B.U. L. Rev. 689 (2007) ..................... 27
Alan C. Marco & Saurabh Vishnubhakat,
Certain Patents, 16 Yale J.L. & Tech.
(2013) ................................................................... 29
Collected Works of Abraham Lincoln
(Roy B. Basler ed. 1953)...................................... 26
Ex Parte Reexamination Certificate
(11197th) for U.S. Patent No. 6,271,884
(Oct. 13, 2017) ..................................................... 30
Gary Locke, Remarks at World Intellectual
Property Day Event, 174 Intellectual
Property Counselor (2011) ............................. 29-30
Henry Grabowski, Patents, Innovation and
Access to New Pharmaceuticals, 5 J. Int’l
Econ. L. 849 (2002) ............................................. 29
Shapiro et al., Supreme Court Practice
(10th ed. 2013)..................................................... 31
The Federalist No. 43 (James Madison) .................. 26

1

INTRODUCTION
This case implicates fundamental questions
about the proper roles of the jury and the court. After
a six-day trial, the jury found that Respondent
Samsung not only infringed Petitioner Imperium’s
patent rights but did so willfully. The jury expressly
rejected Samsung’s invalidity defenses, finding that
Samsung had failed to meet its heavy burden of
showing by clear and convincing evidence that the
relevant patent claims were invalid. The district court
then denied Samsung’s post-trial motion for judgment
as a matter of law and awarded Imperium treble
damages plus attorney’s fees in light of Samsung’s
willful infringement, litigation misconduct, and
material misrepresentations under oath. The total
judgment on the patent claims at issue here exceeded
$22 million.
The Federal Circuit nonetheless vacated the
judgment for Imperium and held that Samsung was
entitled to judgment as a matter of law on its
invalidity defense. That holding was profoundly
wrong, disregarded more than a century of this
Court’s precedents, failed to hold Samsung to its
burden of proof, conflicts with the decisions of several
other circuits, and diminishes the value and security
of patent rights nationwide.
The core error in the Federal Circuit’s
reasoning was its holding that the jury was required
to accept what the panel described as the “unrebutted”
or “uncontradicted” testimony of Samsung’s paid
expert. To reach that holding, the court necessarily

2

made its own determinations about the credibility of
Samsung’s expert, finding based on a post hoc
assessment of the record that there was no
“inconsistency or equivocation” in this witness’s
testimony.
The Federal Circuit’s decision is flatly contrary
to this Court’s precedents. It is the jury—not the
court—that is “the judge[] of the credibility of the
witnesses … and in weighing their testimony ha[s] the
right to determine how much dependence was to be
placed upon it.” Aetna Life Ins. Co. v. Ward, 140 U.S.
76, 88 (1891). Indeed, this Court has explained at
length why a jury may choose not to credit even
“uncontradicted” testimony. Quock Ting v. United
States, 140 U.S. 417, 420-21 (1891). For example, that
testimony could have “an inherent improbability,”
there could be errors or omissions in the witness’s
testimony that lead the jury to “discredit his whole
story,” or the witness’s “manner … of testifying may
give rise to doubts of his sincerity, and create the
impression that he is giving a wrong coloring to
material facts.” Id. All of those possibilities “may
properly be considered in determining the weight
which should be given to [a witness’s] statements,
although there be no adverse verbal testimony
adduced.” Id.
Under a proper application of those bedrock
principles, this should have been an easy case. It was
Samsung’s burden to prove invalidity by clear and
convincing evidence, and a reasonable jury could have
readily concluded that Samsung’s testimony did not
satisfy that demanding burden of proof. In particular,

3

the jury could have found that Samsung’s witnesses
were not credible in light of Samsung’s repeated
misrepresentations to the court (which were so serious
as to warrant an award of treble damages and
attorney’s fees) and the fact that Samsung’s testimony
was repeatedly impeached or discredited. This Court’s
precedents are clear that any determinations about
credibility or the strength of the evidence should have
been made by the jury that actually saw the testimony
and evidence firsthand, and that the jury was free to
conclude that Samsung simply had not carried its
burden of proof. And that is doubly true here given
that Samsung’s burden of proof was clear-andconvincing evidence, not just a mere preponderance.
The Federal Circuit’s decision also directly
conflicts with the decisions of at least four other
circuits that have faithfully applied this Court’s
jurisprudence. For example, the Sixth Circuit has
rejected the precise rationale that the Federal Circuit
embraced in this case. In Powers v. Bayliner Marine
Corp., 83 F.3d 789 (6th Cir. 1996), the plaintiffs in a
product liability case argued that they were entitled
to judgment as a matter of law because the defendant
“did not offer any evidence to rebut plaintiffs’ evidence
that the [sailboat] was defectively designed.” Id. at
795. The Sixth Circuit flatly rejected that theory,
holding that the jury “‘is completely free to accept or
reject an expert’s testimony, and to evaluate the
weight given such testimony in light of the reasons the
expert supplies for his opinion.’” Id. at 797. There is
no question Imperium would have prevailed under the
reasoning of Bayliner and similar decisions in several
other circuits. Indeed, the Ninth Circuit has described

4

the notion that a trier of fact must accept
uncontradicted testimony as an “ancient fallacy which
somehow persists despite the courts’ numerous
rulings to the contrary.” NLRB v. Howell Chevrolet
Co., 204 F.2d 79, 86 (9th Cir. 1953). Yet the Federal
Circuit relied upon that precise “ancient fallacy” in the
decision below.
If allowed to stand, the Federal Circuit’s
decision will nullify years of hard-fought litigation, a
weeklong trial, and separate determinations by the
trial judge and jury that Samsung not only infringed
Imperium’s patent rights but did so willfully (and
withheld critical evidence of its infringement). The
jury’s verdict was also entirely consistent with the
actions of the Patent and Trademark Office, which has
twice rejected Samsung’s attempts to invalidate the
relevant patent claims through an inter partes review
and ex parte reexamination.
On a more fundamental level, this ruling
significantly diminishes the value of patent rights
throughout the United States, as the Federal Circuit
has exclusive jurisdiction over patent appeals. The
Federal Circuit’s approach effectively substitutes its
own judgment for that of both experienced juries and
the Patent and Trademark Office. The effect will be to
cast doubt on the enforceability of all patents, thereby
diminishing the protections for innovation and the
value of patent rights across the country. Certiorari is
warranted to correct the Federal Circuit’s marked
departure from this Court’s precedent, restore
uniformity and predictability to this critical area of

5

the law, and ensure the protection of patent rights
throughout the United States.
OPINIONS BELOW
The Federal Circuit’s opinion in the principal
appeal is published at 757 Fed. Appx. 974 and is
reproduced at App. 1a. The memorandum opinion and
order of the U.S. District Court for the Eastern
District of Texas denying Samsung’s post-trial motion
for judgment as a matter of law is published at 259 F.
Supp. 3d 530 and is reproduced at App. 52a.
The district court’s orders awarding Imperium
attorney’s fees under 35 U.S.C. §285 are unpublished
and reproduced at App. 18a, 39a. The Federal
Circuit’s opinion vacating the fee award in light of its
holding in the principal appeal is unpublished and is
reproduced at App. 16a.
JURISDICTION
The Federal Circuit issued its opinions on
January 31, 2019. Petitioner filed timely petitions for
panel rehearing or rehearing en banc of both the
principal opinion and the attorney’s fees opinion,
which the court denied on April 18, 2019. This Court
has jurisdiction under 28 U.S.C. §1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Seventh Amendment to the U.S.
Constitution provides: “In Suits at common law,
where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved,

6

and no fact tried by a jury, shall be otherwise reexamined in any Court of the United States, than
according to the rules of the common law.”
STATEMENT OF THE CASE
A. History of the ’884 Patent
This
case
involves
a
multinational
conglomerate that stole innovative technology from
the United States. In the late 1980s, Rockwell
International was working for the United States
Department of Defense on satellite imaging
technology. Among Rockwell’s innovations was a
method for enabling proper video imaging under
fluorescent lighting. Fluorescent lights flicker on and
off 120 times a second. This “flicker” is undetectable
to the human eye, but is captured by video recordings,
which causes gray lines to appear and distort the
images. U.S. Patent No. 6,271,884 (the ’884 Patent)—
which came to be known as the “anti-flicker” patent—
disclosed Rockwell’s systems and methods for
eliminating these gray lines in videos.
In the early 2000s, the digital imaging division
of a California corporation called ESS Technology,
Inc., was a leader in developing and manufacturing
digital cameras for cellphones. ESS sold its products
across the globe to companies such as Motorola,
Ericsson, LG, Nokia, and Samsung (its largest
customer). In addition to patenting a number of its
own digital-camera innovations, ESS acquired the
portfolio of another California corporation called

7

Pictos Technologies, Inc., which in turn had acquired
the ’884 Patent from Rockwell.
Sales to Samsung eventually dried up, and
ESS’s digital imaging division had to close its doors
and lay off its employees. In 2008, ESS continued to
operate as an audio semiconductor company, but spun
off its imaging intellectual property to a separate
holding company (Imperium IP Holdings (Cayman),
Ltd.). Beginning in 2010, Imperium sought to enforce
its patent rights against a number of multinational
corporations that had used its technology in video
recording devices, single-lens reflex cameras,
automobiles, and cellphones.
By April 2013, after years of discussions,
negotiations, and eventually the filing of a lawsuit,
seven of the eight largest cellphone manufacturers
(Apple, Kyocera, Nokia, Sony, LG, Motorola and
Research in Motion) agreed to enter into licensing
arrangements for the use of Imperium’s imaging
technology, including the fundamental anti-flicker
technology of the ’884 Patent. Reflecting the value and
importance of Imperium’s patent rights, the total
value of these licenses exceeded $22 million. Only
Samsung—one of the world’s largest cellphone
manufacturers, which had sold over 121 million
mobile devices in the United States at that time—
refused to enter into a licensing arrangement.
B. District Court Proceedings
On June 9, 2014, Imperium sued Samsung in
the Eastern District of Texas, alleging that Samsung
willfully infringed three patents related to digital-

8

camera technology, including the ’884 Patent. In its
responsive pleadings and interrogatories, Samsung
repeatedly asserted that it was unaware of
Imperium’s patents until this suit was filed. See C.A.
App. 315-24, 13937-39.1 Those representations were
later shown to be false. Materials produced in
discovery showed that Samsung knew of Imperium’s
patents as early as spring of 2011, and that Samsung
had hired an outside broker to try to purchase those
patents surreptitiously. See C.A. App. 55-57, 83-84.
During a six-day jury trial in February 2016,
Imperium offered extensive evidence showing that
Samsung had copied its camera technology. One
witness who had worked at ESS (the predecessor-ininterest to Imperium) testified that Samsung—unique
among ESS’s customers—demanded access to source
code and other sensitive information. See C.A. App.
10985-93, 11055-11056. He further testified that
Samsung had “duplicated” ESS’s camera laboratory at
its facilities in Korea. C.A. App. 82-83, 10993-93.
Imperium also introduced expert testimony
explaining how Samsung’s accused products met each
element of the asserted claims.
At trial, Samsung initially denied knowledge of
Imperium’s patents, and told the jury that any efforts
to buy those patents had ended by 2011. C.A. App. 14,
83, 11254, 11286. But at 2:19 a.m. on the fourth day
of trial, after Imperium had finished its case-in-chief,
Samsung produced, for the first time, additional
documents that flatly contradicted its earlier
1

“C.A. App.” refers to the Appendix in the Federal Circuit.

9

representations. Those documents showed that
Samsung had been specifically tracking litigation over
Imperium’s patents; that discussions about obtaining
the patents continued into 2012, 2013, and 2014; and
that Samsung continued to be interested in acquiring
Imperium’s patents after 2011. C.A. App. 8817-22.
These belatedly-produced documents reflected
Samsung’s knowledge and interest in Imperium’s
patented technology, and were thus highly relevant to
willfulness and infringement—and to Samsung’s
credibility more generally.
The jury returned a verdict finding that
Samsung had infringed the ’884 Patent, that the five
asserted claims of this patent were not invalid as
anticipated or obvious, and that clear and convincing
evidence showed Samsung’s infringement was willful.
C.A. App. 86-94. The jury found Samsung liable for
$4.84 million for its infringement of the ’884 Patent.2
After further briefing and argument, the
district court awarded treble damages in light of
Samsung’s knowing and willful infringement, its
discovery misconduct, and its repeated false
statements and misrepresentations. See C.A. App. 5960, 82-84. For example, the court found that
Samsung’s witnesses provided testimony that was
“demonstrably false and not worth of belief.” C.A. App.
83. The court further emphasized that Samsung’s
The jury also returned verdicts on the other two patentsin-suit—finding the three asserted claims of the ’029 Patent valid
and infringed, but finding the sole asserted claim of the ’290
Patent obvious. See C.A. App. 90-94. Those patents are no longer
at issue here.
2

10

witnesses
“made
multiple
material
misrepresentations under oath” and “gave false
testimony” at trial, including “testimony that
[Samsung] proffered to the jury.” C.A. App. 83-84. The
court later awarded Imperium more than $7 million
in attorney’s fees under 35 U.S.C. §285 due to
Samsung’s willful infringement and litigation
misconduct. App. 18a, 39a.
After trial, Samsung moved for judgment as a
matter of law, arguing (as relevant here) that the ’884
Patent was invalid because it was anticipated by two
prior art references (“Johnson” and “Hashimoto”). The
district court denied this motion, explaining that
Samsung had offered evidence on anticipation at trial,
but that Imperium had presented competing
testimony showing that the cited prior art had “very
little to do with the ’884 Patent.” App. 81a. The district
court thus concluded that “substantial evidence
supports the jury’s findings” and “[i]t was reasonable
for the jury to find that [Samsung] did not present
clear and convincing evidence of anticipation.” Id. In
short, “[a] reasonable jury was free to credit
[Imperium’s] testimony over [Samsung’s], and it is not
the Court’s role to second guess the credibility
determinations of the jury.” Id. (emphasis added).
C. The Federal Circuit’s Decision
The Federal Circuit reversed. Notwithstanding
the jury’s verdict rejecting Samsung’s invalidity
defense—and notwithstanding the fact that it was
Samsung’s burden to prove invalidity through clear
and convincing evidence—the panel held that

11

Samsung was entitled to judgment as a matter of law
on the ground that the ’884 Patent was invalid for
anticipation.
The Federal Circuit “agree[d] with Samsung
that a reasonable jury was required on the record of
this case to find the claims of the ’884 Patent at issue
to be anticipated by the prior art.” App. 8a (emphasis
added). The court noted that Samsung’s expert
“provided detailed testimony” about why the claims of
the ’884 Patent were anticipated by the Johnson
reference. The court then asserted that Imperium had
failed to “contradict that testimony on cross
examination or otherwise,” and that Imperium’s
expert “did not dispute the substance of [Samsung’s]
testimony.” App. 9a-10a. While noting in passing that
“[j]uries have wide leeway to assess evidence and
credibility,” the court suggested that such “leeway”
applies only in “cases involving conflicting expert
testimony.” App. 11a. The court also performed its
own assessment of the credibility of Samsung’s expert,
finding that there was no “inconsistency or
equivocation” in this witness’s testimony. App. 13a. At
no point in its opinion did the court contemplate the
possibility that: (1) the jury simply concluded that
Samsung had not met its heavy burden of proof on
invalidity; or (2) the jury did not find Samsung’s
experts to be credible.
Thus, even though Samsung bore the burden of
proving invalidity under the extremely demanding
clear-and-convincing standard, the Federal Circuit
concluded that “the jury could not properly find that
the claims of the ’884 Patent at issue here are not

12

anticipated.” App. 14a (emphasis added). In light of
that holding on invalidity, the Federal Circuit also
separately vacated the $7 million award of attorney’s
fees because “Imperium is no longer the prevailing
party.” App. 17a.
REASONS FOR GRANTING THE PETITION
Certiorari is warranted because the Federal
Circuit “has entered a decision in conflict with the
decision of another United States court of appeals on
the same important matter,” and “has so far departed
from the accepted and usual course of judicial
proceedings … as to call for an exercise of this Court’s
supervisory power.” S. Ct. R. 10(a).
I.

The Federal Circuit’s Decision Conflicts
With This Court’s Precedents And The
Decisions Of Several Other Circuit
Courts.
A.

The Federal Circuit’s decision
disregards
this
Court’s
jurisprudence about the proper
roles of the jury and the court.

1. The Seventh Amendment protects “the right
of trial by jury” and provides that “no fact tried by a
jury, shall be otherwise re-examined in any Court of
the United States, than according to the rules of the
common law.” U.S. Const. amend. VII. Consistent
with that foundational guarantee, this Court has held
that “[c]redibility determinations, the weighing of the
evidence, and the drawing of legitimate inferences
from the facts are jury functions, not those of a judge,

13

whether he is ruling on a motion for summary
judgment or for a directed verdict.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986).
As the Court recognized nearly a century ago in
an opinion by Justice Cardozo, expert testimony
merely involves “expressions of opinion by [witnesses]
familiar with” the relevant subject matter. Dayton
Power & Light Co. v. Pub. Utils. Comm’n of Ohio, 292
U.S. 290, 299 (1934). “But plainly opinions thus
offered, even if entitled to some weight, have no such
conclusive force that there is error of law in refusing to
follow them.” Id. (emphasis added). This principle “is
true of opinion evidence generally, whether addressed
to a jury … or to a judge … or to a statutory board.”
Id.; see also Sartor v. Arkansas Nat. Gas Corp., 321
U.S. 620, 627-28 (1944) (same).
Once expert testimony has been admitted,
“then it is for the jury to decide whether any, and if
any what, weight is to be given to the testimony.”
Congress & Empire Spring Co. v. Edgar, 99 U.S. 645,
658 (1878). Critically, “the jury, even if such testimony
be uncontradicted, may exercise their independent
judgment” not to credit it. The Conqueror, 166 U.S.
110, 131 (1897) (emphasis added); see also Forsyth v.
Doolittle, 120 U.S. 73, 77 (1887) (approving
instruction stating that jury was “not bound by the
estimate” of damages provided by expert witnesses
and had the “duty” to “settle and determine this
question of value from all the testimony in the case”).
There are countless circumstances in which a
jury may choose not to believe even “uncontradicted”
testimony. Quock Ting v. United States, 140 U.S. 417,
420-21 (1891). There may be “such an inherent

14

improbability in the statements of a witness as to
induce the court or jury to disregard his evidence,
even in the absence of any directly conflicting
testimony.” Id. Or there may be significant errors or
omissions in the witness’s testimony that “discredit
his whole story.” Id. Or the witness’s “manner … of
testifying may give rise to doubts of his sincerity, and
create the impression that he is giving a wrong
coloring to material facts.” Id. All of these possibilities
“may properly be considered in determining the
weight which should be given to his statements,
although there be no adverse verbal testimony
adduced.” Id.
In short, this Court’s precedents are crystal
clear that it is the jury—not the court—that is “the
judge[] of the credibility of witnesses … and in
weighing their testimony ha[s] the right to determine
how much dependence was to be placed upon it.”
Aetna Life Ins. Co. v. Ward, 140 U.S. 76, 88 (1891).
“There are many things sometimes in the conduct of a
witness upon the stand, and sometimes in the mode in
which his answers are drawn from him through the
questioning of counsel, by which a jury are to be
guided in determining the weight and credibility of his
testimony.” Id. But “[t]hat part of every case …
belongs to the jury, who are presumed to be fitted for
it by their natural intelligence and their practical
knowledge of men and the ways of men; and, so long
as we have jury trials, they should not be disturbed in
their possession of it, except in a case of manifest and
extreme abuse of their function.” Id.
2. The Federal Circuit’s decision flouts these
bedrock principles regarding the role of the jury in

15

weighing the evidence and making credibility
determinations. It was not Imperium’s burden to show
that its patents were valid; instead, invalidity is an
affirmative defense that Samsung had the burden of
proving. And a finding of invalidity requires not just a
preponderance of the evidence, but clear and
convincing proof. Congress declared in the Patent Act
that “[a] patent shall be presumed valid.” 35 U.S.C.
§ 282(a). As a result, a “defendant raising an
invalidity defense” bears “‘a heavy burden of
persuasion,’ requiring proof of the defense by clear
and convincing evidence.” Microsoft Corp. v. i4i Ltd.
Partnership, 564 U.S. 91, 102 (2011) (quoting Radio
Corp. of Am. v. Radio Eng’g Labs., 293 U.S. 1, 8
(1934)).
The question of invalidity in this case was
emphatically one that belonged to the jury. After
seeing all the testimony and evidence presented at a
six-day
trial—including
Samsung’s
misrepresentations that cast serious doubt on the
credibility of the company and its witnesses—the jury
concluded that Samsung had not carried its heavy
burden of showing by clear and convincing evidence
that the relevant claims of the ’884 Patent were
invalid. C.A. App. 88-90. The district court then
denied Samsung’s post-trial motion for judgment as a
matter of law on invalidity. As the district court
correctly explained, a “reasonable jury was free to
credit [Imperium’s] testimony over [Samsung’s], and
it is not the Court’s role to second guess the credibility
determinations of the jury.” Id. And, as noted, the
Patent and Trademark Office has twice rejected

16

efforts to invalidate the relevant claims of the ’884
Patent.
The Federal Circuit nonetheless reversed that
holding and vacated the $22 million judgment on the
theory that the jury was “required” to accept the
testimony of Samsung’s paid expert (Neikirk) on the
question of whether the ’884 Patent was invalid for
anticipation. App. 8a. The court noted that Neikirk
had testified that the relevant claims of the ’884
Patent were anticipated by the “Johnson patent.” Id.
The court then asserted that Imperium’s expert
testimony and cross-examination did not “dispute,”
“contradict,” or “impeach” that portion of Neikirk’s
testimony. App. 9a-13a. And the court found based on
its own credibility determination that there was no
“inconsistency or equivocation” in Neikirk’s
testimony. App. 13a. Even if the Federal Circuit were
correct that Neikirk’s testimony on anticipation was
unrebutted and credible—which it was not, see infra
Section I.C—its holding that the jury was required to
accept Samsung’s paid expert testimony flouts this
Court’s precedents regarding the proper roles of the
court and the jury.
A critical error in the Federal Circuit’s
reasoning was its suggestion that Imperium had some
affirmative obligation to rebut or contradict
Samsung’s expert testimony on invalidity to avoid
judgment as a matter of law. It did not. As noted,
invalidity must be proven by clear and convincing
evidence, and that burden was borne by Samsung, not
Imperium. See Microsoft, 564 U.S. at 102. Thus, even
if Imperium had offered no evidence whatsoever on
invalidity, it was well within the jury’s discretion to

17

conclude that Samsung simply had not carried its
burden of proof. Expert testimony merely involves
“expressions of opinion by [witnesses] familiar with a
subject,” and those opinions “have no such conclusive
force that there is error of law in refusing to follow
them.” Dayton Power & Light Co., 292 U.S. at 299.
The jury, “even if such testimony be uncontradicted,”
may “exercise [its] independent judgment” not to
credit it. The Conqueror, 166 U.S. at 131. The Federal
Circuit thus committed a basic but fundamental error
of law by holding that the jury was “required” to find
invalidity by anticipation based on Neikirk’s
purportedly unrebutted and credible testimony. App.
8a. That holding disregards Samsung’s heavy burden
of proof and ignores the basic reality that the jury
clearly recognized Samsung had not carried its
burden of proof.
The Federal Circuit relied on inapposite
precedent to support its holding. The court cited
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 149-50 (2000), and Webster v. Offshore Food
Serv., 434 F.2d 1191, 1193 (5th Cir. 1970), for the
proposition that juries may not disregard
“uncontradicted and unimpeached” expert testimony.
App. 12a. But neither Reeves nor Webster involved a
situation—like this case—where a party was seeking
judgment as a matter of law on an issue where it bore
the ultimate burden of proof, much less where that
burden was clear-and-convincing evidence. Webster
granted summary judgment against a plaintiff who
submitted no evidence on causation, which was an
element of his claim that he had the burden to prove.
434 F.2d at 1193-95. And Reeves denied a defendant’s

18

motion for judgment as a matter of law on
employment-discrimination claims that the plaintiff
had the burden of proving at trial. 530 U.S. at 153-54.
In sum, the Federal Circuit’s decision in this
case rests on a basic error of law about the proper role
of the jury. The court’s reasoning embraces a
proposition that this Court has repeatedly rejected for
more than a century—that the jury can be required to
accept expert testimony merely because it is
“uncontradicted” or “unrebutted.” Contrary to the
Federal Circuit’s holding in the decision below, a
proper interpretation of the Seventh Amendment
requires that “[c]redibility determinations, the
weighing of the evidence, and the drawing of
legitimate inferences from the facts are jury functions,
not those of a judge.” Anderson, 477 U.S. at 255.
B.

The Federal Circuit’s decision
conflicts with the decisions of
several other circuits.

The Federal Circuit’s decision conflicts not only
with this Court’s precedents but also with the
decisions of a number of other circuits. For example,
the Eighth Circuit has emphasized that:
It is elementary that in the trial of an
action at law, the jurors are the sole and
exclusive judges of the facts, of the
credibility of witnesses, and of the
weight of the evidence. Evidence which is
uncontradicted is not necessarily to be
accepted as true. Its weight and the

19

credibility of the witnesses who gave it
are usually for the jury to determine.
Elzig v. Gudwangen, 91 F. 2d 434, 440 (8th Cir. 1937).
As that court explained more recently, “a jury is free
to disbelieve any witness, even if the testimony is
uncontradicted or unimpeached.” Willis v. State Farm
Fire and Cas. Co., 219 F.3d 715, 720 (8th Cir. 2000).
A party has no obligation to “produce any evidence
refuting” a witness’s testimony where the jury could
have concluded that the witness was lying or not
credible. Id.
The Sixth Circuit’s decision in Powers v.
Bayliner Marine Corp., 83 F.3d 789 (6th Cir. 1996), is
also highly instructive. There, following a jury verdict
for the defendant, the plaintiffs argued on appeal that
they were entitled to judgment as a matter of law.
Just like Samsung’s arguments here, the Bayliner
plaintiffs’ JMOL motion “centered on the argument
that Bayliner did not offer any evidence to rebut
plaintiffs’ evidence that the Buccaneer 180 [sailboat]
was defectively designed.” Id. at 795. The Federal
Circuit accepted such a theory in this case, but the
Sixth Circuit squarely rejected it in Bayliner. The
court emphasized that the jury “‘is completely free to
accept or reject an expert’s testimony, and to evaluate
the weight given such testimony in light of the reasons
the expert supplies for his opinion.’” Id. at 797-98
(quoting United States v. 0.161 Acres of Land in
Birmingham, Ala., 837 F.2d 1036, 1040-41 (11th Cir.
1988)). There is no question this case would have come
out the other way under the reasoning of Bayliner had
it arisen in the Sixth Circuit.

20

The Third Circuit has also reached a contrary
conclusion on facts similar to this case. In Hassan v.
Stafford, 472 F.2d 88, 95 (3d Cir. 1973), the estate of
the plaintiff (who died in a fire) argued that it was
“error for the trial court to deny his motion for a
directed verdict on the issue of liability” in light of “the
unrefuted testimony of his expert . . . that the motel
did not conform to current standards for fire safety
devices.” The Third Circuit flatly rejected that
argument, holding that the expert’s “credibility on the
question of what constituted current [fire safety]
standards was a matter for the jury to consider,” and
“a trier of fact is not bound to accept an expert’s
opinion merely because it is uncontradicted.” Id. at 96;
see also Mihalchak v. Am. Dredging Co., 266 F.2d 875,
878 (3d Cir. 1959) (“Always when the motion [for
directed verdict] is made by the proponent there is a
problem of the credibility to be attached to his
evidence, for if it is disbelieved in important degree
his motion must fail.”).
So too in the Ninth Circuit. In Guy v. City of
San Diego, 608 F.3d 582, 588 (9th Cir. 2010), the
plaintiff argued that the jury’s verdict for the
defendant was not supported by substantial evidence
because the plaintiff’s “testimony concerning the
nature and cause of his injuries was undisputed at
trial.” But the court rejected that argument,
emphasizing that “it has long been held that a jury
may properly refuse to credit even uncontradicted
testimony.” Id. Indeed, the Ninth Circuit has
described the notion that a trier of fact must blindly
accept uncontradicted testimony as an “ancient
fallacy which somehow persists despite the courts’

21

numerous rulings to the contrary.” NLRB v. Howell
Chevrolet Co., 204 F.2d 79, 86 (9th Cir. 1953); see also
id. (noting that jury may reject even uncontradicted
testimony in light of a witness’s “carriage,” “bearing,”
“manner,” or “demeanor”); Joseph v. Donover Co., 261
F.2d 812, 824 (9th Cir. 1958) (noting that trier of fact
may reject even uncontradicted testimony in light of
“the demeanor of the witness” or “‘the whole nexus of
sense impressions’ which one gets from a witness”).
In sum, at least four other circuit courts have
correctly applied the critical principle that the Federal
Circuit failed to heed: that the jury always has the
power to determine that a party failed to meet its
burden of proof, even if that party’s evidence
(including expert testimony) was “uncontradicted” or
“unrebutted.” The Federal Circuit has both erred and
“entered a decision in conflict with the decision of
another United States court of appeals on the same
important matter.” S. Ct. R. 10(a).
C.

There were abundant grounds on
which the jury could have found
Samsung’s
testimony
to
be
unreliable or not credible.

For all the reasons set forth above, the Federal
Circuit’s reasoning fails even under that court’s
(erroneous) assumption that Samsung’s testimony on
invalidity
was
credible,
“undisputed,”
and
“unimpeached.” Certiorari is thus warranted to
reverse the court’s fundamentally flawed holding that
the jury was “required” to believe this testimony. But
the Federal Circuit’s assumption is also wrong, as

22

Imperium offered an abundance of evidence that cast
doubt on the validity and credibility of Samsung’s
testimony. The Federal Circuit’s vacatur of a $22
million judgment based on these serious errors is such
a stark “depart[ure] from the accepted and usual
course of judicial proceedings … as to call for an
exercise of this Court’s supervisory power.” S. Ct. R.
10(a).
At trial, Samsung’s paid expert Dr. Neikirk
presented obviousness and anticipation theories
based primarily on the “Johnson” reference. C.A. App.
11863-64. Imperium’s Dr. Wright then provided
rebuttal testimony, arguing that the ’884 Patent
remained “as valid as the day it was issued.” E.D. Tex.
Docket 4:14-cv-371, Item 274 (“2-5-16PM Tr.”) at 127.
The jury rejected all of Neikirk’s invalidity theories,
and Samsung did not even raise most of those theories
on appeal. C.A. App. 45-51.
The record as a whole makes abundantly clear
that a reasonable jury could have concluded that
Samsung failed to prove invalidity by clear and
convincing evidence. Imperium thoroughly crossexamined Neikirk over 43 transcript pages, testing
his credibility and his opinions on infringement,
anticipation, and obviousness. E.D. Tex. Docket 4:14cv-371, Item 272 (“2-5-16AM Tr.”) at 22-65. It is wellestablished that “inconsistencies” or lack of credibility
in a witness’s testimony on one issue can also
“negatively impact[] the persuasiveness” of his
testimony on other issues. Apple v. Samsung, 839 F.3d
1034, 1045 n.10 (Fed. Cir. 2016) (en banc); see also
Webster, 434 F.2d at 1193 (jury may reject expert

23

testimony, even if uncontradicted, and may apply its
own common-sense judgment in light of all the
evidence); Joseph, 261 F.2d at 824 (jury may assess
credibility of testimony in light of “‘the whole nexus of
sense impressions’ which one gets from a witness”).
Here, Neikirk’s testimony was repeatedly
undermined and contradicted by other evidence,
which could have led a reasonable jury to doubt his
credibility and veracity more generally. For example,
Neikirk testified that Samsung’s lawyers helped draft
his report and fed him materials. E.D. Tex. Docket
4:14-cv-371, Item 271 (“2-4-16PM Tr.”) at 87-88. On
cross-examination, he could not remember which
validity materials (including the critical Johnson
reference) he had found on his own and which had
been provided by Samsung. C.A. App. 11992, 11995.
Neikirk also initially denied any knowledge of the
prior-art references and invalidity theories raised in
Imperium’s previous litigation, but he confessed
otherwise when impeached with his expert report.
C.A. App. 11993-11994. And Neikirk admitted on
cross-examination that he had made a “mistake”
when preparing a slide that was central to his
presentation on non-infringement. 2-5-16AM Tr. at
43-44. The jury also could have found Neikirk’s
testimony insufficiently credible based on his
demeanor, which was evasive and combative. C.A.
App. 11993-11994; 2-5-16AM Tr. at 40-43. Simply put,
notwithstanding the Federal Circuit’s post hoc
credibility assessment finding that there was no
“inconsistency or equivocation” in Neikirk’s
testimony, App. 13a, there were abundant grounds on
which a reasonable jury could have questioned

24

Neikirk’s credibility and veracity.3 Determinations
about witness credibility are for the jury to make after
full deliberations, not for a judge to make based on
reading a cold record.
Moreover, despite the Federal Circuit’s
suggestion that Neikirk’s testimony was “not
contradicted,” App. 13a, Imperium’s expert Dr.
Wright—whose testimony must be credited and given
all
reasonable
inferences—undermined
and
contradicted Neikirk’s testimony on numerous issues.
Dr. Wright highlighted the errors in Neikirk’s
statements that Samsung did not sell devices
practicing the patented methods in the U.S. E.g., 2-516PM Tr. at 129-30. He also testified that Neikirk’s
analysis of the ’884 Patent’s limitations did not “make
any sense,” since it would result in a “non-functional
camera.” Id. at 132-33. Moreover, Dr. Wright directly
rebutted Neikirk on the four prior-art references and
invalidity theories that Samsung did not raise on
appeal. Id. at 123-27. And Dr. Wright directly
responded to Neikirk’s premise that Johnson’s limited
disclosure was “similar” in nearly all respects to
Imperium’s ’884 Patent claims. C.A. App. 1221712218.
In sum, the record included testimony that the
’884 Patent remained “as valid as the day it was
issued,” 2-5-16PM Tr. at 127, and there were
Neikirk also acknowledged being paid $500 per hour by
Samsung for his testimony, see 2-4-16PM Tr. at 85-86, and
testified that he had a professional relationship with one of the
named inventors of the Johnson patent, see App. 13a.
3

25

numerous grounds on which the jury could have found
that both Neikirk and Samsung more generally lacked
credibility in light of the many inconsistencies and
contradictions in their testimony. Thus, although the
Federal Circuit’s erroneous holding that the jury was
required to accept Samsung’s “unrebutted” or
“uncontradicted” expert testimony is, by itself, a
sufficient basis for reversal, it is by no means the only
ground on which the court erred. There were pages of
testimony at trial rebutting the testimony of
Samsung’s well-paid expert witness, as well as
affirmative testimony on the validity of the ’884
Patent. Simply put, there was abundant evidence in
the record from which a reasonable jury could have
concluded that Samsung’s witnesses were not credible
and that Samsung’s evidence failed to meet its heavy
burden of proving invalidity by clear and convincing
evidence.
II.

The Federal Circuit’s Decision Has
Significant Implications For Patent
Rights Nationwide.

The decision below would be problematic in any
jurisdiction, but it is especially troubling that the case
arose in the Federal Circuit, which has exclusive
jurisdiction over patent appeals. If allowed to stand,
the court’s reasoning would effectively impose new
and heavy evidentiary burdens on patent holders to
avoid a finding of invalidity, and would empower the
Federal Circuit to override a jury’s determination that
a patent is not invalid. The overall effect would be to
diminish the strength and predictability of patent
rights, disregard the role of the Patent and

26

Trademark Office in assessing patent validity, create
new uncertainties for patent holders nationwide, and
chill innovation and technological advancement.
A. Patent rights are so central to our economy
and system of government that the Founders
expressly addressed them in the Constitution:
Congress shall have the power “[t]o promote the
progress of science and useful arts, by securing for
limited times to authors and inventors the exclusive
right to their respective writings and discoveries.”
U.S. Const., art. I, §8, cl. 8. As James Madison
emphasized in The Federalist, “[t]he public good fully
coincides” with protection of inventors’ exclusive
rights in their “useful inventions.” The Federalist No.
43 (James Madison); see also Abraham Lincoln,
Second Lecture on Discoveries and Inventions (Feb. 11,
1859), in 3 Collected Works of Abraham Lincoln 363
(Roy B. Basler ed. 1953) (noting that the patent
system “added the fuel of interest to the fire of genius,
in the discovery and production of new and useful
things”).
This Court has similarly explained that “[t]he
economic philosophy behind the clause empowering
Congress to grant patents and copyrights is the
conviction that encouragement of individual effort by
personal gain is the best way to advance public
welfare through the talents of authors and inventors
in ‘Science and the useful Arts,’” and that “[s]acrificial
days devoted to such creative activities deserve
rewards commensurate with the services rendered.”
Mazer v. Stein, 347 U.S. 201, 219 (1954). Another
early decision emphasized that only through patent

27

protection “can we protect intellectual property, the
labors of the mind, productions and interests as much
a man’s own, and as much the fruit of his honest
industry, as the wheat he cultivates or the flocks he
rears.” Davoll v. Brown, 7 F. Cas. 197, 199 (D. Mass.
1845).
Consistent with those bedrock principles, this
Court has held for more than a century that patents
have the same status under the Constitution as other
forms of property rights. A patent “confers upon the
patentee an exclusive property in the patented
invention which cannot be appropriated or used by the
government itself, without just compensation, any
more than it can appropriate or use without
compensation land which has been patented to a
private purchaser.” James v. Campbell, 104 U.S. 356,
358 (1882); see also Festo Corp. v. Shoketsu Kinzoku
Kogyo Kabushiki Co., 535 U.S. 722, 739 (2002) (noting
that patent rights constitute “the legitimate
expectations of inventors in their property”); Adam
Mossoff, Patents as Constitutional Private Property:
The Historical Protection of Patents Under The
Takings Clause, 87 B.U. L. Rev. 689, 690-91 (2007)
(arguing that “[p]atents are property,” and that the
early history of the Constitution shows that “patents
were protected under the Takings Clause”).
In sum, to “‘promote the progress of science and
the useful arts,’” the patent laws confer property
rights in one’s inventions “for a limited period as an
incentive to inventors to risk the often enormous costs
in terms of time, research, and development.”
Kewanee Oil Co. v. Bicron Corp., 416 U.S. 470, 480

28

(1974). “The productive effort thereby fostered will
have a positive effect on society through the
introduction of new products and processes of
manufacture into the economy, and the emanations by
way of increased employment and better lives for our
citizens.” Id.
B. The Federal Circuit’s decision severely
undermines the value, stability, and certainty of
patent rights. As noted, this Court has ensured robust
protection for patent rights by holding that a
“defendant raising an invalidity defense” bears “‘a
heavy burden of persuasion,’ requiring proof of the
defense by clear and convincing evidence.” Microsoft,
564 U.S. at 102. This “heavy burden” of proof ensures
that patent rights—e.g., inventors’ property rights in
the fruits of their labor—are not cast aside
haphazardly.
The Federal Circuit’s decision makes it far too
easy for an appellate court to second-guess and
override a jury’s finding of validity, and to disregard
the role of the Patent and Trademark Office in
protecting property rights for patent holders. The
decision below is antithetical to the clear, rules-based
system that is needed for innovation to flourish. As
this Court has recognized, “courts must be cautious
before adopting changes that disrupt the settled
expectations of the inventing community.” Festo Corp.
v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S.
722, 724 (2002) (citing Warner-Jenkinson Co. v. Hilton
Davis Chem. Co., 520 U.S. 17, 28 (1997)).

29

Scholars have similarly emphasized that
“[w]here uncertainty is prevalent, its effects on the
behavior of firms, and on their ability to appropriate
value from their patents, can be dramatic. And
because a principal purpose of the patent system is to
provide incentives for research, innovation, and
knowledge diffusion by creating rewards, an inability
to appropriate those rewards unduly diminishes the
very incentives for which the system was designed.”
Alan C. Marco & Saurabh Vishnubhakat, Certain
Patents, 16 Yale J.L. & Tech. 103, 106-07 (2013). As
“uncertainty over the scope and validity of patents”
“increase[s] or decrease[s],” “the literature has shown
that such uncertainty affects the incentives of firms to
license or conduct research and development, to enter
markets, and to litigate their patents.” Id. at 114
(footnotes omitted); see also Henry Grabowski,
Patents,
Innovation
and
Access
to
New
Pharmaceuticals, 5 J. Int’l Econ. L. 849, 853 (2002)
(“Without a well structured system of patent
protection, neither the research pharmaceutical
industry nor the generic industry would be able to
grow and prosper, as the rate of new product
introductions and patent expirations would decline
significantly.”).
As Commerce Secretary Gary Locke similarly
explained in a 2011 speech, “[s]trong and clear patent
rights are especially vital to small and new
businesses, which create two out of every three
American jobs. Successful inventors need to secure
patent rights to access capital, hire employees, and lift
their companies off the ground.” Gary Locke, Remarks
at World Intellectual Property Day Event, 174

30

Intellectual Property Counselor 2 (2011). Under the
Federal Circuit’s reasoning, however, patent rights
will be anything but “strong and clear,” even after
they have been upheld by a jury after a multi-day
trial.
C. In addition to the broader implications for
the patent system and judicial review of jury verdicts,
the Federal Circuit’s decision also results in an
extreme injustice in this case.
The Patent and Trademark Office (“PTO”) has
twice rejected Samsung’s attempts to invalidate the
’884 claims, first through an inter partes review
request (which was supported by the same expert, and
arguments similar to those Samsung advanced at
trial), and then in a post-verdict request for ex parte
reexamination. See Ex Parte Reexamination
Certificate (11197th) for U.S. Patent No. 6,271,884
(Oct. 13, 2017); Patent Trial and Appeal Board,
Docket No. IPR2015-01231, Paper No. 15 at 2. The
Federal Circuit’s decision thus not only disregards the
determinations of the jury and trial judge who saw the
evidence first-hand, but also calls into question the
reasoned decisions of the PTO.
Worse still, the Federal Circuit’s decision
leaves Imperium with no remedy for Samsung’s
intentional infringement and repeated litigation
misconduct. The jury expressly found—by clear and
convincing evidence—that Samsung’s infringement
was willful. C.A. App. 86-94. The district court then
awarded enhanced damages and attorney’s fees in
light of Samsung’s willful infringement, provision of

31

“false
testimony,”
“multiple
material
misrepresentations under oath,” and “fail[ure] to
produce relevant documents timely.” App. 45a-46a.
Allowing the Federal Circuit’s decision to stand will
allow Samsung to evade any liability or penalty for its
intentional theft of intellectual property and repeated
litigation misconduct. If the Court does not grant
plenary review, it should summarily reverse the
decision below. See, e.g., Hunter v. Bryant, 502 U.S.
224, 227-28 (1991) (summarily reversing court of
appeals decision that “ignores the import of” Supreme
Court decisions and reflects “confusion” about the
relevant legal principles); Shapiro et al., Supreme
Court Practice 352 (10th ed. 2013) (“there appears to
be agreement that summary disposition is
appropriate to correct clearly erroneous decisions of
lower courts”).
III.

If The Court Reverses The Judgment
Below, It Should Reinstate The Award Of
Attorney’s Fees.

As noted above, the district court awarded
Imperium more than $7 million in attorney’s fees
under 35 U.S.C. §285 in light of Samsung’s willful
infringement, “multiple material misrepresentations
under oath,” and “fail[ure] to produce relevant
documents timely.” App. 45a-46a. The Federal Circuit
vacated that award based solely on its finding that
Imperium’s patents were invalid and that Imperium
was thus “no longer the prevailing party.” App. 17a.
Because the reversal of the fee award was entirely
derivative of the court’s holding on invalidity, this
Court should reverse that decision and reinstate the

32

fee award if the Court reverses the Federal Circuit’s
decision on invalidity.
CONCLUSION
The Court should grant the petition for a writ
of certiorari, reverse the Federal Circuit’s decision,
and reinstate the district court’s award of attorney’s
fees.
Respectfully submitted.
JEFFREY M. HARRIS
Counsel of Record
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(202) 321-4120
jeff@consovoymccarthy.com
PATRICK STRAWBRIDGE
CONSOVOY MCCARTHY PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
(617) 227-0548
ALAN M. FISCH
R. WILLIAM SIGLER
FISCH SIGLER LLP
5301 Wisconsin Avenue NW, 4th Floor
Washington, DC 20015
(202) 362-3500

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED JANUARY 31, 2019
Note: This Disposition is Nonprecedential
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2017-2107, 2017-2133
IMPERIUM IP HOLDINGS (CAYMAN), LTD.,
Plaintiff-Cross-Appellant,
v.
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
ELECTRONICS AMERICA, INC., SAMSUNG
SEMICONDUCTOR, INC.,
Defendants-Appellants.
Appeals from the United States District Court for
the Eastern District of Texas in No. 4:14-cv-00371-ALM,
Judge Amos L. Mazzant, III.
January 31, 2019, Decided
Before DYK, O’MALLEY, and TARANTO, Circuit
Judges.
Taranto, Circuit Judge.

2a
Appendix A
Imperium IP Holdings (Cayman), Ltd. brought
this action in 2014 against Samsung Electronics Co.,
Ltd., Samsung Electronics America, Inc., and Samsung
Semiconductor, Inc. (plus another Samsung entity that
has since merged into one of those just named), which
we refer to collectively as “Samsung.” Imperium alleged
that Samsung had infringed and was infringing three
Imperium-owned patents: U.S. Patent Nos. 6,271,884;
7,092,029; and 6,836,290. When the case went to trial, the
jury found infringement of claims 1, 5, 14, and 17 of the
‘884 patent and of claims 1, 6, and 7 of the ‘029 patent,
rejected Samsung’s invalidity challenges to the claims at
issue from those patents, found claim 10 of the ‘290 patent
infringed but invalid, and awarded damages for infringing
the ‘884 and ‘029 patents.
In post-trial rulings, the district court let the jury’s
determinations on infringement and invalidity stand.
Imperium IP Holdings (Cayman), Ltd. v. Samsung
Electronics Co., 259 F. Supp. 3d 530, 537-49 (E.D. Tex.
2017) (Imperium). The court also enhanced damages,
Imperium IP Holdings (Cayman), Ltd. v. Samsung
Electronics Co., 203 F. Supp. 3d 755, 761-64 (E.D. Tex.
2016) (Enhancement Op.), amended in part, No. 4:14-CV371, 2017 U.S. Dist. LEXIS 63975, 2017 WL 1716589 (E.D.
Tex. Apr. 27, 2017); granted Imperium an ongoing royalty,
Imperium IP Holdings (Cayman), Ltd. v. Samsung
Electronics Co., No. 4:14-CV-371, 2017 U.S. Dist. LEXIS
148485, 2017 WL 4038884, at *1 (E.D. Tex. Sept. 13, 2017);
and awarded Imperium attorney’s fees, Imperium IP
Holdings (Cayman), Ltd. v. Samsung Electronics Co.,
No. 4:14-CV-371, 2018 U.S. Dist. LEXIS 56478, 2018 WL

3a
Appendix A
1602460, at *1 (E.D. Tex. Apr. 3, 2018); Imperium IP
Holdings (Cayman), Ltd. v. Samsung Electronics Co.,
No. 4:14-CV-371, 2017 U.S. Dist. LEXIS 148486, 2017
WL 4038883, at *1 (E.D. Tex. Sept. 13, 2017). Samsung
appeals on numerous grounds, principally concerning the
jury’s finding of no anticipation of the claims of the ‘884
patent found infringed. Imperium cross-appeals to seek,
among other things, judgment as a matter of law of nonanticipation of claim 10 of the ‘290 patent.
We agree with Samsung that the only reasonable
finding on this record is that the ‘884 patent claims at issue
here are invalid for anticipation. As for the at-issue claims
of the ‘029 and ‘290 patents, liability is barred by our
separate affirmance of the unpatentability rulings of the
Patent and Trademark Office’s Patent Trial and Appeal
Board regarding those claims. We therefore reverse the
judgment of liability against Samsung on the ‘884 and
‘029 patents and affirm the judgment against Imperium
on the ‘290 patent.
I
A
The three patents at issue relate to components in
digital cameras. The ‘884 patent is entitled “Image Flicker
Reduction with Fluorescent Lighting.” The patent claims
a method of lighting photographs to reduce the impact of
flickering fluorescent lights. ‘884 patent, col. 6, line 63,
through col. 7, line 6. Claim 1 claims:

4a
Appendix A
1. A method of reducing flicker caused by
lighting having a periodic intensity using an
imager having a pixel integration time, the
method comprising the steps of:
setting the integration time to an
integral multiple of the period of the
periodic intensity of the lighting;
determining an amount to vary an
overall system gain; and
adjusting the overall system gain by
adjusting the integration time while
maintaining the integration time at
an integral multiple of the period of
the periodic intensity.
Id. Dependent claim 5 claims “[t]he method of claim 1,
wherein the lighting is 60 Hz lighting, and wherein the
period of the periodic intensity of the lighting is 8 1/3 ms.”
Id., col. 7, lines 16-18.
Asserted independent claim 14 is an apparatus claim
related to the claim 1 method claim. Claim 14 claims:
14. An imager for a digital camera with reduced
flicker caused by lighting having a periodic
intensity, the imager providing data for a
plurality of pixels, the imager comprising:

5a
Appendix A
prog rammable integ ration time
circuitry that controls an integration
time of the plurality of pixels;
an integ ration time adjustment
block coupled to the programmable
i nt eg rat ion t i me c i rcu it r y, t he
integration time adjustment block
setting the integration time to an
integral multiple of the period of the
periodic intensity of the lighting; and
an overall gain control block that
adjusts an overall system gain by
adjusting the integration time while
maintaining the integration time at
an integral multiple of the period of
the periodic intensity.
Id., col. 7, line 47, through col. 8, line 4. Dependent claim
17 claims
[t]he imager of claim 14, further comprising:
an analog, variable gain stage receiving the
data for the plurality of pixels and providing
amplified analog pixel data; an analog to digital
converter receiving the amplified analog pixel
data and providing digitized pixel data; and a
gamma correction stage receiving the data, and
providing scaled pixel data.
Id., col. 8, lines 11-20.

6a
Appendix A
The ‘029 patent describes and claims methods of
adjusting the intensity and duration of the flash used in
taking a photograph based on information gathered in a
preparatory or preflash stage. ‘029 patent, col. 11, lines 4057. The ‘290 patent describes and claims a data interface
circuit that contains, and allows selection between, a
single-ended and a differential interface. ‘290 patent, col.
5, lines 6-18. We need not set out details of those patents
here.
B
We have already described the jury verdict and the
district court’s post-trial rulings.1 After the jury rendered
its verdict, but before the district court’s rulings on the last
of Samsung’s post-trial motions, the Board determined
that the claims of the ‘290 and the ‘029 patents asserted
in this case by Imperium are unpatentable for obviousness
over prior art. Samsung Elecs. Co. v. Imperium (IP)
Holdings, No. 2015-01232 (PTAB Dec. 1, 2016) (finding the
‘029 patent obvious over the prior art); Samsung Elecs. Co.
v. Imperium (IP) Holdings, No. 2015-01233 (PTAB Nov.
30, 2016) (finding the ‘290 patent obvious over the prior
1. The jury found non-infringement of claim 6 of the ‘884
patent, but Imperium does not appeal that verdict. Although
the jury rejected Samsung’s anticipation challenge to claim 6,
the district court treated Samsung’s post-trial motion seeking
judgment as a matter of law on invalidity as not including that
claim. See Imperium, 259 F. Supp. 3d at 548. Neither Samsung nor
Imperium has argued that we should treat this appeal differently.
We treat the judgment regarding the ‘884 patent, insofar as it is
before us on appeal, as covering only claims 1, 5, 14, and 17.

7a
Appendix A
art). We have affirmed both Board decisions. Imperium
(IP) Holdings v. Samsung Elecs. Co., No. 2017-1570, 747
Fed. Appx. 859, 2019 U.S. App. LEXIS 608, 2019 WL
140857 (Fed. Cir. Jan. 9, 2019); Imperium (IP) Holdings
v. Samsung Elecs. Co., No. 2017-1571, 747 Fed. Appx. 862,
2019 U.S. App. LEXIS 607, 2019 WL 140950 (Fed. Cir.
Jan. 9, 2019).
Samsung appeals on a number of grounds, among
them that the record establishes as a matter of law
(contrary to the jury verdict) that the infringed claims of
the ‘884 patent are anticipated. Imperium cross-appeals,
seeking additional monetary relief and arguing that the
record establishes as a matter of law (contrary to the jury
verdict) that claim 10 of the ‘290 patent is not anticipated.
We have jurisdiction under 28 U.S.C. § 1295(a)(1).
II
A
We review the denial of judgment as a matter of law
de novo and the underlying jury findings for substantial
evidence. Bear Ranch, L.L.C. v. Heartbrand Beef, Inc., 885
F.3d 794, 801 (5th Cir. 2018); i4i Ltd. P’ship v. Microsoft
Corp., 598 F.3d 831, 841 (Fed. Cir. 2010) (following Fifth
Circuit law), aff’d on other issues, 564 U.S. 91, 131 S. Ct.
2238, 180 L. Ed. 2d 131 (2011); Minn. Mining & Mfg. Co.
v. Chemque, Inc., 303 F.3d 1294, 1300 (Fed. Cir. 2002).
Judgment as a matter of law rejecting the jury’s verdict
on a specific issue is justified if the evidence is such that
a reasonable jury could not decide that issue as it did.

8a
Appendix A
See Fed. R. Civ. P. 50(a); Reeves v. Sanderson Plumbing
Prods., Inc., 530 U.S. 133, 149-50, 120 S. Ct. 2097, 147 L.
Ed. 2d 105 (2000); Raytheon Co. v. Indigo Sys. Corp., 895
F.3d 1333, 1338 (Fed. Cir. 2018) (explaining that, under
Fifth Circuit law, judgment is appropriate “where the facts
and inferences point so strongly and overwhelmingly in
favor of one party that the court concludes that reasonable
jurors could not arrive at a contrary verdict”) (internal
quotation marks omitted).
Here, the dispositive issue is whether, on this record,
claims 1, 5, 14, and 17 of the ‘884 patent must be held
invalid for anticipation as a matter of law. We agree with
Samsung that a reasonable jury was required on the
record of this case to find the claims of the ‘884 patent at
issue to be anticipated by prior art.
The prior-art Johnson patent, U.S. Patent No.
7,289,145, teaches a circuit for processing image data
in a digital camera. Johnson, col. 2, lines 3-10. In the
specification, Johnson discloses “flickerless modes . . . to
enable indoor operation with fluorescent lights.” Id., col.
16, lines 44-46. It also provides a technical description
of how the flickerless setting adjusts to operate under
flickering fluorescent lighting. Id., col. 16, lines 42-61. That
description, together with Johnson’s figures, especially
Figure 13, teaches altering exposure time by an integral
multiple of the cycle of the fluorescent light, changing the
time from one cycle to two cycles.
At trial, as Imperium does not dispute, Samsung’s
expert, Dr. Neikirk provided detailed testimony about

9a
Appendix A
how Johnson discloses each of the limitations of claims
1, 5, 14, and 17 of the ‘884 patent. In particular, he
explained that Johnson, including its Figure 13, teaches
the “setting the integration time” and “maintaining the
integral multiples” claim limitations—which are the
only limitations Imperium now argues are missing from
Johnson.
On cross-examination, Imperium provided no basis
for questioning those conclusions. To the extent that
Imperium even mentioned the ‘884 patent on crossexamination, it did so by asking, “Johnson doesn’t say the
words ‘integration time,’ does it . . . ?” J.A. 11994-95. Dr.
Neikirk noted that “Johnson uses the term ‘shutter,’ . . . or
‘shutter gain,’” id., and he had already explained that the
terms mean the same thing. J.A. 11836 (“Integration time
is the length of time that light is allowed to be gathered
by the sensor to form the electrical signal. There’s a
lot of other terms that get used for that: shutter speed,
exposure time, simply shutter — in some cases, shutter
gain. All of those terms are used to refer to integration
time.”). Imperium did not contradict that testimony on
cross-examination or otherwise. See In re Gleave, 560 F.3d
1331, 1334 (Fed. Cir. 2009) (“[An anticipatory] reference
need not satisfy an ipsissimis verbis test.”).
Imperium suggests that its expert, Dr. Wright,
offered contrary evidence that the jury could have credited
to uphold the ‘884 patent (the so-called “anti-flicker
patent”). But Dr. Wright did not dispute the substance of
Dr. Neikirk’s testimony. Dr. Wright testified as follows:

10a
Appendix A
Now, likewise with Johnson, Johnson has very
little to do with the anti-flicker patent. If you
read the Johnson patent, what it has to do with
is it’s trying to convert signals from a very
atypical CCD [charge coupled device] sensor
that has four colors and they’re trying to
reformat that information into a standard video
signal that would have three colors. It’s just a
reformatter. That’s all it’s meant for.
Out of over 40 columns of text in that patent,
there’s one paragraph that even mentions
flicker. And in that paragraph—and there’s a
little figure that goes along with it. Dr. Neikirk
showed you that little figure. But that one
paragraph of seven sentences, it just talks
about, well, you can average the light over one
cycle or two cycles of the light variation, and
that’s really all it says.
And it talks of this flickerless mode in this
paragraph. Never says how you’re supposed to
achieve this flicker mode, how you’re supposed
to—what kind of equipment it takes to do this.
It’s very—just kind of in passing. Obviously,
wasn’t very important to the inventors if they
only spent this tiny little paragraph on this big,
long patent.
So I don’t find that these two prior patents are
really close to the anti-flicker patent at all.
J.A. 12218.

11a
Appendix A
None of this testimony undermines Dr. Neikirk’s
testimony. The assertion that “Johnson has very, very little
to do with the [‘884] patent” because it is mostly directed
toward another purpose, with only “one paragraph that
mentions flicker,” is irrelevant. It says nothing whatsoever
about the substance of what is in that paragraph in
Johnson, or in the associated figures, including Figure 13,
discussed in that paragraph, or about how that substance
relates to the claim limitations at issue. See MobileMedia
Ideas LLC v. Apple Inc., 780 F.3d 1159, 1172-73 (Fed. Cir.
2015) (reversing the denial of judgment as a matter of law
where plaintiff’s expert offered “only testimony unrelated
to the actual limitation” of the relevant claim). In the only
sentence in which Dr. Wright refers to the substance of
Johnson, he states that Johnson “just talks about, well,
you can average the light over one cycle or two cycles of
the light variation, and that’s really all it says.” Id. But
that testimony is unaccompanied by even an assertion, let
alone an explanation, that a ‘884 claim limitation is missing
from Johnson. In fact, Dr. Wright’s reference to “one
cycle or two cycles” on its face points toward, not away
from, teaching the “integral multiple” claim limitation.
In short, Dr. Wright’s testimony does not contradict any
of Dr. Neikirk’s testimony.
Juries have wide leeway to assess evidence and
credibility. That leeway is reflected, for example, in our
rulings in cases involving conflicting expert testimony.
See, e.g., Intellectual Ventures I LLC v. Motorola Mobility
LLC, 870 F.3d 1320, 1327 (Fed. Cir. 2017); Edwards
Lifesciences AG v. CoreValve, Inc., 699 F.3d 1305, 1313
(Fed. Cir. 2012); see also i4i, 598 F.3d at 850; Ramirez v.
Landry’s Seafood Inn & Oyster Bar, 280 F.3d 576, 578 n.3

12a
Appendix A
(5th Cir. 2002). And, of course, it is the party attacking
the validity of a patent that has the burden of proving
invalidity; “that burden of persuasion does not shift at
any time to the patent owner.” TP Labs., Inc. v. Prof’l
Positioners, Inc., 724 F.2d 965, 971 (Fed. Cir. 1984). But
under the requirement of substantial evidence, a jury’s
rejection of expert testimony must have some reasonable
basis.
That is why the Supreme Court has held that, in
ruling on a motion for judgment as a matter of law, “the
court should give credence to the evidence favoring
the nonmovant as well as that evidence supporting the
moving party that is uncontradicted and unimpeached,
at least to the extent that that evidence comes from
disinterested witnesses.” Reeves, 530 U.S. at 151 (internal
quotation marks omitted); see also Chesapeake & Ohio
Ry. Co. v. Martin, 283 U.S. 209, 216, 51 S. Ct. 453, 75 L.
Ed. 983 (1931). Similarly, under Fifth Circuit precedent,
the jurors as “the trier of fact [are] not . . . at liberty to
disregard arbitrarily the unequivocal, uncontradicted
and unimpeached testimony of an expert witness where .
. . the testimony bears on technical questions of medical
causation beyond the competence of lay determination.”
Webster v. Offshore Food Serv., Inc., 434 F.2d 1191,
1193 (5th Cir. 1970) (internal citation omitted); see also
NewCSI, Inc. v. Staffing 360 Solutions, Inc., 865 F.3d 251,
257 (5th Cir. 2017); Quinn v. Sw. Wood Prods., Inc., 597
F.2d 1018, 1024 (5th Cir. 1979) (applying principle where
defendant’s expert presented the only testimony on a
crucial technical point, explaining that “it has been held
that such testimony, even by an employee of a party, must

13a
Appendix A
be taken as true where it was candid, the witness was not
impeached, his credibility was not questioned, and his
testimony was not controverted although, if inaccurate,
it could readily have been shown to be so”).
In this case, the jury’s finding lacks any reasonable
basis. A s we have recount ed, Dr. Nei k i rk gave
straightforward, detailed testimony that Johnson taught
all the limitations of the claims at issue, and the cited
portions of Johnson provide support for that testimony that
is on its face strong. This testimony was not contradicted.
Nor was Dr. Neikirk impeached. Imperium has not
identified any inconsistency or equivocation in Dr. Neikirk’s testimony; nor has it pointed to any other reason
the jury could reasonably have rejected his testimony.
At oral argument in this court, Imperium noted that Dr.
Neikirk worked with one of the Johnson patent’s ten coinventors when that co-inventor was a graduate student.
But in its main brief responding to Samsung’s argument
about the ‘884 patent, Imperium did not identify that
fact as a basis for the jury to disbelieve Dr. Neikirk. See
Principal and Response Brief of Imperium at 29-33. On
this record, the prior work together, standing alone, is not
enough for a reasonable jury to disbelieve Dr. Neikirk. Cf.
Chesapeake & Ohio Ry. Co., 283 U.S. at 216 (“The witness
was not impeached; and there is nothing in the record
which reflects unfavorably upon his credibility. The only
possible ground for submitting the question to the jury
as one of fact was that the witness was an employee of the
petitioner. In the circumstances above detailed, we are of
opinion that this was not enough to take the question to

14a
Appendix A
the jury, and that the court should have so held.”); Quinn,
597 F.2d at 1024 (similar conclusion even though expert
was an employee of the defendant).
On the evidence in this record, we hold, the jury
could not properly find that the claims of the ‘884 patent
at issue here are not anticipated. The liability judgment
against Samsung based on the ‘884 patent therefore must
be reversed.
B
The liability judgment against Samsung in this case
also rested on certain claims of the ‘029 patent, and
Imperium seeks, in its cross-appeal, to establish liability
as a matter of law based on claim 10 of the ‘290 patent
(which the jury determined to be invalid). But we have
affirmed the Board’s determinations that those claims are
unpatentable. Liability based on those claims, therefore,
is now precluded. See Fresenius USA, Inc. v. Baxter
Int’l, Inc., 721 F.3d 1330, 1339 (Fed. Cir. 2013). We must
reverse the judgment of liability based on the ‘029 patent
and reject Imperium’s argument for liability based on the
‘290 patent.
We need not reach any of the remaining issues
presented on the appeal and cross-appeal, all of which
are mooted by the reversal of liability.

15a
Appendix A
III
The judgment against Samsung on the ‘884 patent
and the ‘029 patent is reversed. The judgment against
Imperium on the ‘290 patent is affirmed.
Costs to Samsung.
REVERSED IN PART, AFFIRMED IN PART

16a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED JANUARY 31, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1923
IMPERIUM IP HOLDINGS (CAYMAN), LTD.,
Plaintiff-Appellee ,
v.
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
ELECTRONICS AMERICA, INC., SAMSUNG
SEMICONDUCTOR, INC.,
Defendants-Appellants.
Appeal from the United States District Court for
the Eastern District of Texas in No. 4:14-cv-00371-ALM,
Judge Amos L. Mazzant, III.
January 31, 2019, Decided
Before Dyk, O’M alley, and Taranto, Circuit Judges.
Taranto, Circuit Judge.
Imperium IP Holdings (Cayman), Ltd. brought
this action in 2014 against Samsung Electronics Co.,

17a
Appendix B
Ltd, Samsung Electronics America, Inc., and Samsung
Semiconductor, Inc. (plus another Samsung entity that
has since merged into one of those just named), which
we refer to collectively as “Samsung.” Imperium alleged
infringement of three Imperium-owned patents: U.S.
Patent Nos. 6,271,884; 7,092,029; and 6,836,290. The
district court eventually entered a judgment of liability
against Samsung based on a jury verdict. The court also
concluded that Imperium was entitled to attorney’s fees
as a prevailing party under 35 U.S.C. § 285, Imperium IP
Holdings (Cayman), Ltd. v. Samsung Elecs. Co., No. 4:14CV-371, 2017 U.S. Dist. LEXIS 148486, 2017 WL 4038883,
at *1 (E.D. Tex. Sept. 13, 2017), and later calculated the
amount of fees and awarded them, Imperium IP Holdings
(Cayman), Ltd. v. Samsung Elecs. Co., No. 4:14-CV-00371,
2018 U.S. Dist. LEXIS 56478, 2018 WL 1602460 (E.D.
Tex. Apr. 3, 2018). The present appeal is Samsung’s appeal
from the award of fees.
We reverse that award. Under § 285, a party may not be
awarded fees unless it is “the prevailing party.” 35 U.S.C.
§ 285. The district court found the “prevailing party”
requirement met because “Imperium was successful in
proving [Samsung] infringed asserted claims in the ’884
and ’029 Patents.” Imperium IP Holdings (Cayman), Ltd.,
No. 4:14-CV-371, 2017 U.S. Dist. LEXIS 148486, 2017 WL
4038883, at *2. Today, in a separate opinion, we reverse
the judgment of liability against Samsung and affirm the
judgment of no liability on the ’290 patent. Imperium IP
Holdings (Cayman), Ltd. v. Samsung Elecs. Co., Nos.
2017-2107, 2017-2133, 2019 U.S. App. LEXIS 3136 (Fed.
Cir. Jan. 31, 2019). Accordingly, Imperium is no longer
the prevailing party, and we must reverse the award of
attorney’s fees at issue in this case.
REVERSED

18a
Appendix C
Appendix C — MEMORANDUM
OPINION AND
ORDER of the UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT OF
TEXAS, SHERMAN DIVISION, FILED
APRIL 3, 2018
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
Civil Action No. 4:14-CV-00371
IMPERIUM IP HOLDINGS (CAYMAN), LTD.
v.
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
ELECTRONICS AMERICA, INC., SAMSUNG
TELECOMMUNICATIONS AMERICA, LLC, and
SAMSUNG SEMICONDUCTOR, INC.
Judge: AMOS L. MAZZANT, UNITED STATES
DISTRICT JUDGE.
April 3, 2018, Decided
April 3, 2018, Filed
MEMORANUDM OPINION AND ORDER
Pending before the Court is Imperium IP Holdings
(Cayman), Ltd.’s (“Imperium”) Motion for § 285 Attorneys’
Fees (Dkt. #363). After reviewing the relevant pleadings,
the Court finds that the motion should be granted.

19a
Appendix C
BACKGROUND
On June 9, 2014, Imperium filed the instant action
against Defendants, alleging infringement of United
States Patent Nos. 6,271,884 (the “’884 Patent), 7,092,029
(the “’029 Patent”), and 6,836,290 (the “’290 Patent”). On
February 8, 2016, the jury returned a verdict finding the
following: (1) Defendants infringed Claims 1, 5, 14, and 17
of the ’884 Patent; (2) Defendants infringed Claims 1, 6,
and 7 of the ’029 Patent; (3) Defendants willfully infringed
the patents-in-suit; and (4) Claim 10 of the ‘290 Patent was
invalid for obviousness (Dkt. #253).
The jur y awarded $ 4, 8 40,772 in damages for
infringement of the ’884 Patent and $2,129,608.50 in
damages for infringement of the ’029 Patent (Dkt. #253).
The jury’s award represents an implied royalty rate of four
cents per product for the ’884 Patent and two cents per
product for the ’029 Patent. On August 24, 2016, the Court
awarded enhanced damages for willful infringement and
entered final judgment (Dkt. #329; Dkt. #330).
On September 13, 2017, the Court granted in part and
denied in part Imperium’s Motion for § 285 Attorneys’
Fees and Non-Taxable Costs (Dkt. #401). The Court
awarded Imperium $581,681.44 in non-taxable costs or
expenses. However, Imperium did not provide the Court
with enough information to determine the reasonableness
of Imperium’s fair estimate of attorneys’ fees. Particularly,
Imperium did not provide the Court with the number of
hours Imperium’s attorneys spent on this case, necessary
to calculate the lodestar. Therefore, the Court ordered

20a
Appendix C
Imperium to submit documentation indicating the hours
and billing rates for all legal assistants, associates, and
partners who worked on this case.
In response to the Court’s Order, on September 20,
2017, Imperium filed the Declaration of Alan M. Fisch and
submitted to the Court hard copies of the detailed billing
records for in camera review (Dkt. #406). On October
10, 2017, the parties filed a Joint Motion to Withdraw and
Resubmit Fees Submission and For Extension of Time
to Respond (Dkt. #409), which the Court granted the
following day (Dkt. #410).
On October 20, 2017, Imperium filed a Notice of
Submission of its Redacted Billing Records in Support of
its Motion for Attorneys’ Fees (Dkt. #414). On October
27, 2017, Defendants filed their response (Dkt. #416). On
November 3, 2017, Imperium filed its reply (Dkt. #417).
LEGAL STANDARD
The district court has discretion in determining
a reasonable amount for attorneys’ fees and litigation
expenses, “and, because of its superior understanding of
the litigation, frequent appellate review is to be avoided.”
Lubrizol Corp. v. Exxon Corp., 957 F.2d 1302, 1308 n.14
(5th Cir.1992) (citing Hensley v. Eckerhart, 461 U.S. 424,
437, 103 S.Ct. 1933, 1941, 76 L.Ed.2d 40 (1983)). “[T]he
awarding of attorney fees pursuant to 35 U.S.C. § 285
is unique to patent law and therefore subject to Federal
Circuit law.” Special Devices, Inc. v. OEA, Inc., 269 F.3d
1340, 1343 (Fed. Cir. 2001). The Federal Circuit has

21a
Appendix C
approved of use of the lodestar method in calculating an
award of § 285 attorneys’ fees. Mathis v. Spears, 857 F.2d
749, 755 (Fed. Cir. 1988) (citing Hensley, 461 U.S. at 437).
Therefore, the Court will apply the two-step lodestar
method.
The Court first calculates the “lodestar” by multiplying
the number of hours an attorney reasonably spent on the
case by an appropriate hourly rate, which is the market
rate in the community for this work. See Smith & Fuller,
P.A. v. Cooper Tire & Rubber Co., 685 F.3d 486, 490 (5th
Cir. 2012). “A reasonable hourly rate is the prevailing
market rate in the relevant legal community for similar
services by lawyers of reasonably comparable skills,
experience, and reputation.” Norman v. Hous. Auth. of
City of Montgomery, 836 F.2d 1292, 1299 (11th Cir. 1988)
(citing Blum v. Stenson, 465 U.S. 886, 895-96 n.11, 104
S. Ct. 1541, 79 L. Ed. 2d 891 (1984)). The relevant legal
community is the community where the district court
sits. See Tollett v. City of Kemah, 285 F.3d 357, 368 (5th
Cir. 2002).
The party seeking reimbursement of attorneys’
fees bears the burden of establishing the number of
hours expended through the presentation of adequately
recorded time records as evidence. See Riley v. City
of Jackson, Miss., 99 F.3d 757, 760 (5th Cir. 1996); La.
Power & Light Co. v. KellStrom, 50 F.3d 319, 324 (5th
Cir. 1995); Watkins v. Fordice, 7 F.3d 453, 457 (5th Cir.
1993). The Court should use this time as a benchmark
and then exclude any time that is excessive, duplicative,
unnecessary, or inadequately documented. Id. The hours

22a
Appendix C
remaining are those reasonably expended. Id. There is a
strong presumption of the reasonableness of the lodestar
amount. See Perdue v. Kenny A., 559 U.S. 542, 552, 130 S.
Ct. 1662, 176 L. Ed. 2d 494 (2010); Saizan v. Delta Concrete
Prods. Co., 448 F.3d 795, 800 (5th Cir. 2006).
A fter calculating the lodestar, the Court then
considers whether the circumstances of the particular case
warrant an upward or downward lodestar adjustment.
Migis v. Pearle Vision, Inc., 135 F.3d 1041, 1047 (5th Cir.
1998). In making any lodestar adjustment, the Court
looks to twelve Johnson factors. Id. (citing Johnson v.
Ga. Highway Express, Inc., 488 F.2d 714, 717-19 (5th Cir.
1974)). The Johnson factors are:
(1) time and labor required; (2) novelty and
difficulty of issues; (3) skill required; (4) loss
of other employment in taking the case; (5)
customary fee; (6) whether the fee is fixed or
contingent; (7) time limitations imposed by
client or circumstances; (8) amount involved
and results obtained; (9) counsel’s experience,
reputation, and ability; (10) case undesirability;
(11) nature and length of relationship with the
client; and (12) awards in similar cases.
Id. (citing Johnson, 488 F.2d at 717-19).
After considering the twelve Johnson factors, the
court may adjust the lodestar upward or downward. Shipes
v. Trinity Indus., 987 F.2d 311, 320 (5th Cir. 1993). “If the
plaintiff obtained limited success, the hours reasonably

23a
Appendix C
spent on the case times the reasonable hourly rate may
be excessive.” Verginia McC v. Corrigan-Camden Indep.
Sch. Dist., 909 F. Supp. 1023, 1032 (E.D. Tex. 1995).
“‘[T]he most cr itical factor ’ in deter mining the
reasonableness of an attorney’s fee award ‘is the degree
of success obtained.’” Giles v. Gen. Elec. Co., 245 F.3d 474,
491 n.31 (5th Cir. 2001) (quoting Farrar v. Hobby, 506 U.S.
103, 113, 113 S. Ct. 566, 121 L. Ed. 2d 494 (1992)); see also
Migis v. Pearle Vision, Inc., 135 F.3d 1041, 1047 (5th Cir.
1998). “The district court may attempt to identify specific
hours that should be eliminated, or it may simply reduce
the award to account for the limited success.” Verginia
McC, 909 F. Supp. at 1032 (quoting Hensley, 461 U.S. at
436).
“Many of these factors usually are subsumed within
the initial calculation of hours reasonably expended at a
reasonable hourly rate and should not be double-counted.”
Jason D.W. v. Houston Indep. Sch. Dist., 158 F.3d 205,
209 (5th Cir. 1998) (internal citations omitted).
The United States Supreme Court has barred any use
of the sixth factor as a basis for enhancement of attorneys’
fees. See Walker v. U.S. Dep’t of Hous. & Urban Dev., 99
F.3d 761, 772 (5th Cir. 1996) (citing City of Burlington v.
Dague, 505 U.S. 557, 567, 112 S. Ct. 2638, 120 L. Ed. 2d
449 (1992)). In addition, three of the Johnson factors —
complexity of the issues, results obtained, and preclusion
of other employment — are fully reflected and subsumed
in the lodestar amount. Heidtman v. Cty. of El Paso, 171
F.3d 1038, 1043 (5th Cir. 1999). “[T]he court should give
special heed to the time and labor involved, the customary

24a
Appendix C
fee, the amount involved and the result obtained, and the
experience, reputation and ability of counsel.” Migis, 135
F.3d at 1047 (citation omitted).
The lodestar is presumptively reasonable and should
be modified only in exceptional cases. Watkins v. Fordice,
7 F.3d 453, 457 (5th Cir. 1993). The fee-seeker must submit
adequate documentation of the hours reasonably expended
and of the attorney’s qualifications and skill, while the
party seeking reduction of the lodestar must show that
a reduction is warranted. Hensley, 461 U.S. at 433; La.
Power & Light Co., 50 F.3d at 329.
ANALYSIS
A. Lodestar
1. 	Hours Expended
Imperium seeks $7,110,290.771 in attorneys’ fees for
13,178.6 hours expended. The hours expended are divided
as follows:
Total Hours
Alan Fisch
R. William Sigler

Billed
591.4
936.9

Cut
40.1
69.9

Total
551.3
867.0

1. Imperium originally requested $7,123,115.77 (Dkt.
#406). However, in its reply (Dkt. #417), Imperium asserts that
it corrected an entry that resulted in a reduction in the fees by
$12,825.00.

25a
Appendix C
Total Hours
John T. Battaglia
Jeffrey Saltman
Silvia Jordan
Desmond Jui
Sruli Yellin
Richard Zhang
David Saunders

Billed
515.1
1,582.4
2,218.3
3,166.4
817.9
651.6
2,264.4

Cut
94.1
39.3
46.5
652.6
75.2
61.6
167.7

Total
421.0
1,543.1
2,171.8
2,513.8
742.7
590.0
2,069.7
(2,096.7 - 27.0)2
Peter Scoolidge
257.7
1.5
256.2
Jennifer Robinson
102.7
102.7
0.0
Patrick Lee
643.7
10.7
633.0
Michelle Chatelain
157.0
0.0
157.0
Matthew Hesser
547.7
78.0
469.7
Maggie Dombrowsky 263.0
97.4
165.6
Alex DeGiulio
26.9
0.2
26.7
14,743.1 1,537.5 13,178.6
(13,205.6 - 27.0)
Defendants2 request that the Court limit the fees
to no more than $3,799,784.81. Defendants assert that
the evidence does not support the amount of hours
Imperium presented because: (1) Imperium failed to
exclude unsuccessful claims and unrelated defendants;
2. The corrected entry was for David Saunders who listed
30.0 instead of 3.0 hours, which resulted in a reduction in the fees
by $12,825.00 ($475 x 27.0 hours).

26a
Appendix C
(2) Imperium did not provide evidence of billing judgment,
including failing to exclude clerical work, and (4) Imperium
statements include block billing. The Court will address
each argument in turn.
i.

Apportionment

I mp e r iu m h a s “ t he bu r den of pr ov i ng t he
reasonableness of the number of hours expended on [its]
prevailing claim.” Von Clark v. Butler, 916 F.2d 255, 259
(5th Cir. 1990) (citing Leroy v. City of Houston, 831 F.2d
576, 585 (5th Cir. 1987)). “[W]here the plaintiff has failed
to prevail on a claim that is distinct in all respects from
his successful claims, the hours spent on the unsuccessful
claim should be excluded.” Hensley, 461 U.S. at 440. The
Court will address each of Defendants’ apportionment
arguments separately.
Defendants argue that a 33% fee reduction is
warranted because Imperium only succeeded on the ’029
and ’884 Patents, which was a small fraction of their claims.
(Dkt. #416 at pp. 2-3). Defendants assert that “[n]ot only
did Imperium not write off any time for work related to
the ‘290 patent, it included entries directed solely to the
‘290 patent.” (Dkt. #416 at p. 2). Thus, because the ‘290
Patent was one of the three, “a fee reduction of 33% is
warranted on the basis of the failure to bill in such a way
that time attributable to ‘290 patent could be removed
from its fee request.” (Dkt. #416 at p. 2).
Defendants also assert that “[a]bout a year after
serving its initial infringement contentions, Imperium

27a
Appendix C
dropped five of the seventeen patent claims initially
asserted against [Defendants], and then dropped three
more on the eve of trial.” (Dkt. #416 at p. 3). Further,
Imperium settled with separate defendants, Samsung
Techwin Co. and Sansung-Opto. Defendants claim,
however, that “Imperium only removed entries where
Samsung Techwin and Samsung-Opto Electronics
were expressly identified, and did not remove any of
the thousand-plus pre-suit investigation hours not
attributable to any specific entity.” (Dkt. #416 at p. 3).
Thus, Defendants claim Imperium failed to adequately
document how it divided this time between Defendants.
Imperium claims that it “raised wholly related
claims, all stemming from [Defendants’] copying of ESS’s
technology and infringement of its intellectual property,
and won substantial relief.” (Dkt. #417 at p. 2). Imperium
asserts that its requested amount follows the Supreme
Court’s Hensley decision, which set forth the general
rule that a plaintiff “who has won substantial relief”
should recover reasonable attorney’s fees for “related”
but unsuccessful claims that “involve a common core of
facts or [are] based on related legal theories.” Hensley,
461 U.S. at 435.
Work done by attorneys on unsuccessful claims
cannot be considered to have been expended for the result
achieved. Hensley, 461 U.S. at 435. As the Supreme Court
explained: “The congressional intent to limit awards to
prevailing parties requires that these unrelated claims be
treated as if they had been raised in separate lawsuits,
and therefore no fee may be awarded for services on the

28a
Appendix C
unsuccessful claim.” Id. In determining which hours to
include and exclude from the lodestar, “[t]he district court
may attempt to identify specific hours that should be
eliminated, or it may simply reduce the award to account
for the limited success.” Id. at 436-37. A party “cannot
have prevailed on issues they did not pursue.” Walker, 99
F. 3d at 769.
In the present case, Imperium’s counsels’ work on
“unsuccessful claims was intimately related to the work
done on successful claims.” Microtune (Texas), L.P. v.
Broadcom Corp., No. 4:01CV23, 2004 U.S. Dist. LEXIS
32953, 2004 WL 716697, at *6 (E.D. Tex. Mar. 18, 2004),
vacated, No. 4:01CV23, 2004 WL 2358101 (E.D. Tex. Aug.
30, 2004). Most of Imperium’s counsels’ time was “devoted
to the litigation as a whole, making it impossible to divide
the work done on each individual claim.” Id. (citing Chem.
Manuf. Assoc. v. E.P.A., 885 F.2d 1276, 1282 (5th Cir.1989)
(finding a lawsuit based on a common core of facts or
related legal theories cannot be viewed as a series of
discrete claims for the purposes of determining reasonable
attorneys’ fees)). The number of witnesses called at trial
did not increase as a result of the unsuccessful claims.
Further, all of Imperium’s claims were so closely related
that allocating the amount of time spent litigating each
individual claim would have been impossible. A claim-byclaim reduction is inappropriate.
Furthermore, the Court already found that Imperium
is the “prevailing party” in this case and also that
“there was ample evidence at trial of Defendants’ willful
infringement that warranted the Court’s enhancement

29a
Appendix C
of damages.” (Dkt. #401). The Court entered its Final
Judgment in this case on August 24, 2016, that Imperium
shall recover from Defendants the enhancement of
damages by three times the jury verdict of $6,970,380.50,
which would result in a total amount of $20,911,141.50. The
Court is of the opinion that no reduction in Imperium’s
attorneys’ fee award based on apportionment is warranted
because hours are inextricably intertwined.
ii.

Billing Judgment

Defendants claim that Imperium failed to exercise
billing judgment, and therefore, there should be a
reduction of the award by twenty percent, intended to
substitute for the exercise of billing judgment. The party
seeking fees has “the burden of showing . . . that the
attorneys exercised billing judgment.” Black v. SettlePou,
P.C., 732 F. 3d 492, 502 (5th Cir. 2013) (citing Saizan v.
Delta Concrete Prods. Co., Inc., 448 F. 3d 795, 799 (5th
Cir. 2006)). Billing judgment is defined as “documentation
of the hours charged and of the hours written off as
unproductive, excessive, or redundant.” Saizan, 448 F.
3d at 799.
Defendants maintain that certain Imperium senior
attorneys did work that should have been done by
support staff or junior attorneys billing at a lower rate.
Defendants point to one example, that “Imperium’s
senior trial lawyers—Alan Fisch, Bill Sigler, and John
Battaglia—billed out at rates ranging from $750 to $1050/
hour, for ‘conduct[ing] research’ in conjunction with motion
briefing,” claiming that is a “task clearly inappropriate for

30a
Appendix C
their level of seniority.” (Dkt. #416 at p. 4). Additionally,
Defendants claim Imperium failed to write off any time
involved in the ramping up of new associates in 2015 after
the case was well underway.
“The Court recognizes that good attorneys litigate
in their own manner and does not require an attorney
to practice in a certain way.” McClain v. Lufkin Indus.,
Inc., No. CIV. A. 9:97-CV-063, 2009 U.S. Dist. LEXIS
27983, 2009 WL 921436, at *5 (E.D. Tex. Apr. 2, 2009),
aff’d in part, vacated in part, remanded, 649 F.3d 374
(5th Cir. 2011). While Imperium’s counsel “engaged in
tasks often associated with attorneys more junior than
[themselves], it is possible that they completed those tasks
more quickly, and with less need for subsequent review
and revision by another attorney.” Id. (citing League of
United Latin American Citizens No. 4552 (LULAC) v.
Roscoe Independent School Dist., 119 F.3d 1228, 1233,
n.3 (5th Cir. 1997)). Therefore, the Court will not reduce
the calculation of the reasonable number of hours because
Imperium’s counsel did not utilize a junior attorney for
research or spent time “ramping up” new associates.
Defendants argue that “Imperium excluded from
its fee demand ‘certain’ clerical work; yet it failed to
exclude all clerical work such as the printing and filing of
documents, as is required.” (Dkt. #416 at p. 5). “Clerical
work . . . should be compensated at a different rate from
legal work.” Walker, 99 F.3d at 770. See Cruz v. Hauck,
762 F.2d 1230, 1235 (5th Cir. 1985) (“A finding that some
of the hours claimed were for clerical work may justify
compensating those hours at a lower rate . . . .”); Johnson,

31a
Appendix C
488 F.2d at 717 (“It is appropriate to distinguish between
legal work, in the strict sense, and investigation, clerical
work, compilation of facts and statistics and other work
which can often be accomplished by non-lawyers . . . .”).
The Court agrees that the filing of legal documents, the
calendaring of events, and communications regarding
scheduling issues, are all clerical in nature. See Lewallen
v. City of Beaumont, No. CIV.A. 1:05-CV-733TH, 2009
U.S. Dist. LEXIS 62503, 2009 WL 2175637, at *6 (E.D.
Tex. July 20, 2009), aff’d, 394 Fed. Appx. 38 (5th Cir. 2010)
(citation omitted) (finding that basic communications and
case organization are “largely clerical or housekeeping
matters and not legal work”).
Exhibit F attached to Defendants’ response lists
seventy-five billing entries Defendants allege to be all
clerical and should be excluded. The alleged clerical work
consists almost entirely of work performed by current and
former Fisch Sigler legal assistants, Matthew Hesser and
Maggie Dombrowsky, who all billed at a lower standard
hourly rate of $200 (Dkt. #416, Exhibit F). However,
“[p]urely clerical or secretarial tasks should not be billed
at a paralegal rate, regardless of who performs them.
Instead, paralegal fees can be recovered only to the extent
that the paralegal performs work traditionally done by
an attorney.” Lewallen, 2009 U.S. Dist. LEXIS 62503,
2009 WL 2175637, at *6 (internal quotations and citations
omitted). Some examples of such work are from entries
on October 8, 2015, when legal assistant Matthew Hesser
billed 0.50 hours to “File[d] Docket No. 141 Sealed Reply in
Support of Motion for Summary Judgment of No Equitable
Estoppel” and billed 1.75 hours to “Correspond[] with

32a
Appendix C
Clerk of Court in ED Texas, Sherman Division to unlock
Jury Trial transcripts for Imperium v. Samsung trial prep
and downloading unlocked trial transcripts” (Dkt. #416
Exhibit F, Entry Nos. 3623, 3625). On October 9, 2015,
he also billed 1.50 hours to “Compile and Print deposition
binder for Neirkirk deposition” (Dkt. #416, Exhibit F,
Entry No. 3628).
The Court finds that such work included on Exhibit
F is “largely clerical or housekeeping matters and not
legal work.” Speaks v. Kruse, No. 04-1952, 2006 U.S.
Dist. LEXIS 84595, 2006 WL 3388480, at *19-20 (E.D.
La. Nov. 20, 2006). Fees will not be awarded for such
work. Only four billing entries listed on Exhibit F are
from attorneys, and the Court finds the designations of
specific billed tasks were legal tasks rather than clerical.
(Dkt. #416, Exhibit F, Entry Nos. 1504, 1579, 2462, 3378).
Therefore, the Court will subtract the amount billed for
clerical work from each legal assistant listed in Exhibit F
when calculating the reasonable attorneys’ fees. The fees
should be reduced by $29,595.00 ($33,965.00 - $1,852.50
- $2,090.00 - $237.50 - $190.00).
Finally, Defendants argue that “many entries are so
vague it is nearly impossible to determine whether the
billed time was unproductive, excessive, or redundant.”
(Dkt. #416 at p 4). The Court disagrees in part. Upon
a review of Alan Fisch’s affidavit, he details certain
time that was written off as unproductive, excessive, or
redundant. The time he excluded includes travel time, as
well as certain administrative time devoted solely to the
firm’s management of case files, documents, and the like.

33a
Appendix C
Imperium also excludes “local counsel fees incurred in the
action that [Defendants] filed against Imperium in midNovember 2015 in the United States District Court for the
District of Delaware and attorneys’ fees for co-counsel in
[Defendants’] inter partes reviews of the patents-in-suit
at the United States Patent & Trademark Office.” (Dkt.
#406 at ¶ 5). Imperium also
cut and excluded time recorded by my firm’s
attorneys and legal assistants devoted to
(a) preparing for and defending the related
Delaware action, (b) related work on Samsung’s
inter partes reviews and the associated appeals
of certain of the Patent Office’s decisions in
those proceedings, (c) related work on the ex
parte re-examination of the ’884 patent, and
(d) litigating Imperium’s related claims against
Samsung Techwin.
(Dkt. #406 at ¶ 5). In total, Imperium removed 1,537.5
hours of time and $788,170.83 for these categories. The
bills submitted by Imperium identify the reductions
and adjustments made to each bill, and are sufficient
to show the adjustments were based on work that was
unproductive, excessive, or redundant. As such, the
adjustments, on their own, show that Imperium exercised
billing judgment. Accordingly, the Court declines to
further reduce the number of hours billed by Imperium
based on billing judgment.

34a
Appendix C
iii. Block Billing
Defendants also challenge the billing statements
because the statements include block billing, which
Defendants assert is insufficient to support Imperium’s
claim for attorneys’ fees. Imperium responds that block
billing does not automatically result in a reduction “where,
as here, [the entries] are adequate to determine the
reasonableness of the time billed.” (Dkt. #417 at p. 5).
Block billing is the practice of including “the total
daily time spent working on a case, rather than itemizing
the time expended on specific tasks.” Fralick v. Plumbers
& Pipefitters Nat’l Pension Fund, No. 3:09-CV-0752-D,
2011 U.S. Dist. LEXIS 13672, 2011 WL 487754, at *4 (N.D.
Tex. Feb. 11, 2011) (quoting Glass v. United States, 335
F. Supp. 2d 736, 739 (N.D. Tex. 2004)). The underlying
concern with block billing is that the information
provided will be so general that it will not be sufficient
documentation to determine if the number of hours billed
by counsel is reasonable. See Permian Power Tong,
Inc. v. Diamondback E&P, LLC, No. 12-16-92-CV, 2017
Tex. App. LEXIS 5414, 2017 WL 2588158, at *14 (Tex.
App.—Tyler May 31, 2017) judgment set aside on other
grounds, opinion not vacated sub nom., 2017 Tex. App.
LEXIS 6026, 2017 WL 2824311 (Tex. App.—Tyler June
30, 2017); Humphrey v. United Way of Tex. Gulf Coast,
802 F. Supp. 2d 847, 864 (S.D. Tex. 2011). “If the applicant’s
documentation of the hours claimed is vague or incomplete,
the district court may reduce or eliminate those hours.”
League of United Latin Am. Citizens # 4552 v. Roscoe
Indep. Sch. Dist., 119 F.3d 1228, 1233 (5th Cir. 1997)
(quotations and citations omitted).

35a
Appendix C
Upon review of the bills submitted to the Court, the
Court finds that Imperium did not engage in block billing.
Imperium itemized tasks and itemized time on a per-task
basis. Here, the entries did not “lump together tasks in
such a way that it is impossible to tell whether, for any
particular task, the number of hours spent and claimed
were reasonable.” Fralick, 2011 U.S. Dist. LEXIS 13672,
2011 WL 487754, at *5.
B. 	Hourly Rate
Imperium asserts that the reasonable hourly rates
for its counsel are as follows:
Hourly Rates
Alan Fisch
R. William Sigler
John T. Battaglia
Jeffrey Saltman
$650
Silvia Jordan
Desmond Jui
Sruli Yellin
Richard Zhang
David Saunders
Peter Scoolidge
Jennifer Robinson
Patrick Lee

2013
$900
$680
$680
-

2014
$950
$713
$713
-

2015
$1,000
$750
$750
$590

2016
$1,050
$790
$790
$620

2017
$1,100
$830
$830

$530
$430
$430
$430

$561
$450
$450
$450
$450

$590
$475
$475
$330
$475
$475
$475
-

$620
$500
$500
$350
$500
-

$650
$525
$525
$370
$525
-

36a
Appendix C
Hourly Rates
2013
Michelle Chatelain Matthew Hesser
Maggie Dombrowsky Alex DeGiulio
-

2014
$315
$190
$190

2015
$330
$200
$200
$200

2016
$210
-

2017
$220
-

(Dkt. #406). Defendants do not contest the reasonableness
of these rates. “Because the rates are not contested, they
are considered prima facie reasonable.” Black Heritage
Soc. v. City of Houston, No. CIVA H-07-0052, 2008 U.S.
Dist. LEXIS 53598, 2008 WL 2769790, at *7 (S.D. Tex.
July 11, 2008) (citing Islamic Center of Miss., Inc. v. City
of Starkville, Miss., 876 F.2d 465, 469 (5th Cir.1989)).
C. 	The Johnson Factors
Many of the lodestar factors are usually “subsumed
within the initial calculation of reasonably expended hours
at a reasonable hourly rate.” Hensley v. Eckerhart, 461
U.S. 424, 435 n. 9, 103 S.Ct. 1933, 1940 n. 9, 76 L.Ed.2d
40 (1983). The lodestar is presumptively reasonable and
should be modified only in exceptional cases. Watkins v.
Fordice, 7 F.3d 453, 457 (5th Cir. 1993).
“After determining the lodestar amount, the district
court may adjust the lodestar up or down in accordance
with the relevant Johnson factors not already included
in the lodestar.” Shipes, 987 F.2d at 320. The Court
must be careful when applying the Johnson factors to
make sure “not to double count a Johnson factor already

37a
Appendix C
considered in calculating the lodestar when it determines
the necessary adjustments.” Id. “Four of the Johnson
factors—the novelty and complexity of the issues, the
special skill and experience of counsel, the quality
of representation, and the results obtained from the
litigation—are presumably fully reflected in the lodestar
amount.” Id. If a factor is presumably considered in the
lodestar amount, the Court may still make an adjustment
based on that factor; however, only “in certain rare and
exceptional cases supported by both specific evidence on
the record and detailed findings.” Id.
Here, the Court has already accounted for the
apportionment of the successful claims, block billing
and billing judgment as part of the lodestar amount and
the parties do not argue that any of the other Johnson
factors require the lonestar award should be adjusted
in either direction. Still, the Court has considered them
on its own and all of the Johnson factors are presumably
reflected in the lodestar amount. There are no exceptional
circumstances permitting the Court to adjust the amount.
As such, the Court will not further reduce the award based
on the Johnson factors.
D.

Calculation

Imperium seeks $7,110,290.77 in attorneys’ fees for
13,178.6 hours. In accordance with this order, Imperium’s
attorneys’ fee award calculates as follows:

38a
Appendix C
Imperium’s Initial Request: $7,110,290.77
Clerical Reduction: ($29,595.00)
Total Attorneys’ Fee Award:

$7,110,290.77
($29,595.00)
$7,080,695.77

CONCLUSION
It is therefore ORDERED that Imperium’s Motion
for Attorneys’ Fees (Dkt. #363) is hereby GRANTED.
Plaintiff is awarded $7,080,695.77 in attorneys’ fees.
SIGNED this 3rd day of April, 2018.
/s/ Amos L. Mazzant
AMOS L. MAZZANT
UNITED STATES DISTRICT JUDGE

39a
Appendix D
APPENDIX D — MEMORANDUM
OPINION AND
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT
OF TEXAS, SHERMAN DIVISION,
FILED SEPTEMBER 13, 2017
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
Civil Action No. 4:14-CV-371
IMPERIUM IP HOLDINGS (CAYMAN), LTD.
v.
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
ELECTRONICS AMERICA, INC., SAMSUNG
TELECOMMUNICATIONS AMERICA, LLC,
AND SAMSUNG SEMICONDUCTOR, INC.
September 13, 2017, Decided
September 13, 2017, Filed
Judge Mazzant
MEMORANDUM OPINION AND ORDER
Pending before the Court is Imperium IP Holdings
(Cayman), Ltd.’s (“Imperium”) Motion for § 285 Attorneys’
Fees and Non-Taxable Costs (Dkt. #363). After reviewing
the relevant pleadings, the Court grants in part and denies
in part Imperium’s motion.

40a
Appendix D
BACKGROUND
On June 9, 2014, Imperium filed the instant action
against Defendants, alleging infringement of United
States Patent Nos. 6,271,884 (the “’884 Patent), 7,092,029
(the “’029 Patent”), and 6,836,290 (the “’290 Patent”). On
February 8, 2016, the jury returned a verdict finding the
following: (1) Defendants infringed Claims 1, 5, 14, and 17
of the ’884 Patent; (2) Defendants infringed Claims 1, 6,
and 7 of the ’029 Patent; (3) Defendants willfully infringed
the patents-in-suit; and (4) Claim 10 of the ‘290 Patent was
invalid for obviousness (Dkt. #253). The jury awarded
$4,840,772 in damages for infringement of the ’884 Patent
and $2,129,608.50 in damages for infringement of the
’029 Patent (Dkt. #253). The jury’s award represents an
implied royalty rate of four cents per product for the ’884
Patent and two cents per product for the ’029 Patent. On
August 24, 2016, the Court awarded enhanced damages
for willful infringement and entered final judgment (Dkt.
#329; Dkt. #330).
On May 11, 2017, Imperium filed the present motion
for attorneys’ fees and non-taxable costs (Dkt. #363). On
May 26, 2017, Defendants filed a response (Dkt. #372).
On June 5, 2017, Imperium filed a reply (Dkt. #381). On
June 13, 2017, Defendants filed a sur-reply (Dkt. #387).
LEGAL STANDARD
Section 285 of Title 35 of the United States Code
provides, “The court in exceptional cases may award
reasonable attorney fees to the prevailing party.” 35

41a
Appendix D
U.S.C. § 285. “When deciding whether to award attorney
fees under § 285, a district court engages in a two-step
inquiry.” MarcTec, LLC v. Johnson & Johnson, 664 F.3d
907, 915 (Fed. Cir. 2012). The court first determines
whether the case is exceptional and, if so, whether an
award of attorney fees is justified. Id. at 915-16 (citations
omitted). The Supreme Court has defined “an ‘exceptional’
case [as] simply one that stands out from others with
respect to the substantive strength of a party’s litigating
position (considering both the governing law and the facts
of the case) or the unreasonable manner in which the
case was litigated.” Octane Fitness LLC v. Icon Health &
Fitness, Inc., 134 S.Ct. 1749, 1756, 188 L. Ed. 2d 816 (2014).
District courts should consider the “totality of the
circumstances” and use their discretion to determine
on a case-by-case basis whether a case is “exceptional.”
Id. A nonexclusive list of factors includes “frivolousness,
motivation, objective unreasonableness (both in the
factual and legal components of the case) and the need
in particular circumstances to advance considerations
of compensation and deterrence.” Id. at n.6. Cases that
may merit an award of attorney fees include “the rare
case in which a party’s unreasonable conduct—while not
necessarily independently sanctionable—is nonetheless
so ‘exceptional’ as to justify an award of fees” or “a case
presenting either subjective bad faith or exceptionally
meritless claims.” Id. at 1757. A party seeking attorney
fees under § 285 must prove the merits of their contentions
by a preponderance of the evidence. Id. at 1758.

42a
Appendix D
ANALYSIS
A. Prevailing Party
Defendants contend they are a prevailing party as
the jury in this case and the U.S. Patent Trial and Appeal
Board in a parallel proceeding found two of the three
patents-in-suit invalid. Defendants further contend they
prevailed because the Patent Office granted ex parte
reexamination of the third patent-in-suit. Imperium
counters that it is the prevailing party because it obtained
an infringement judgment for damages.
A plaintiff may be considered a prevailing party for
attorney’s fees purposes “if they succeed on any significant
issue which achieve some of the benefit the [party] sought
in bringing suit.” Farrar v. Hobby, 506 U.S. 103, 109, 113
S. Ct. 566, 121 L. Ed. 2d 494 (1992) (quoting Hensley v.
Eckerhart, 461 U.S. 424, 433, 103 S. Ct. 1933, 76 L. Ed.
2d 40 (1983)). This occurs when a plaintiff “obtain[s] an
enforceable judgment against the defendant from whom
fees are sought, or comparable relief through a consent
decree or settlement.” Id. at 111 (citations omitted). “In
short, a plaintiff ‘prevails’ when actual relief on the
merits of his claim materially alters the legal relationship
between the parties by modifying the defendant’s behavior
in a way that directly benefits the plaintiff.” Id. at 111-12.
There can be only one prevailing party, but a “party is not
required . . . to prevail on all claims in order to qualify.”
Shum v. Intel Corp., 629 F.3d 1360, 1367-68 (Fed. Cir.
2010).

43a
Appendix D
Because there can be only one prevailing party, the
Court finds that Imperium is the “prevailing party” in
this case. Imperium was successful in proving Defendants
infringed asserted claims in the ’884 and ’029 Patents.
The jury awarded Imperium $4,840,772 in damages for
infringement of the ’884 Patent and $2,129,608.50 in
damages for infringement of the ’029 Patent. Following
trial, the Court trebled the jury’s damages award for
Defendants’ willful infringement. Imperium’s damages
judgment against Defendants “materially alters the legal
relationship” between the parties. This is true because
“[a] judgment for damages in any amount . . . modifies
[Defendants’] behavior for [Imperium’s] benefit by forcing
[Defendants’] to pay an amount of money [they] otherwise
would not pay.” Farrar, 506 U.S. at 113. While the jury
found the ‘290 Patent invalid, the Court recognizes that
Imperium is not required to succeed on every claim to be
the prevailing party. Shum, 629 F.3d at 1367-68. Further,
the Court is unconvinced that the Patent Office’s grant
of ex parte reexamination for the ’884 Patent has any
significant bearing on the Court’s determination of the
prevailing party.
Accordingly, Imperium is a prevailing party and thus
is eligible for its attorney’s fees.
B. Exceptional Case
After considering the totality of the circumstances,
the Court finds this case is “exceptional” based on the
unreasonable conduct of Defendants.

44a
Appendix D
First, there was ample evidence at trial of Defendants’
w illful infr ingement that war ranted the Court’s
enhancement of damages. For instance, Mr. Melfi
testified regarding allegations of Defendants’ copying.
Mr. Melfi testified that during his time working for ESS,1
Defendants sought information on how ESS made its
camera and how to duplicate ESS’s camera testing lab.
He further testified that Defendants asked specifically
about the patented technology and requested source
code. The evidence showed that Defendants used obtained
information to duplicate ESS’s camera testing lab. In
addition, Mr. Bang, who testified for Defendants, stated
Defendants did not follow Imperium’s patents after 2011
or monitor Imperium’s previous litigation regarding the
patents-in-suit. Mr. Lee testified that in 2011, Defendants
dropped pursuit of the Imperium’s patents. However,
evidence produced at trial indicated the testimony of Mr.
Lee and Mr. Bang was untrue. In fact, Defendants knew
of Imperium’s patents for years, tracked those patents in
other litigation, and tried to obtain those patents through
a patent broker before this case began. Despite knowing
of Imperium’s patents since at least 2011, Defendants
never investigated to form a good faith belief as to noninfringement and invalidity. Instead, the record indicates
that Defendants used a patent broker to try to purchase
the patents-in-suit without revealing their identity.
A finding of willful infringement for purposes of
enhanced damages does not require a finding that a case
1. ESS is short for ESS Technology, Inc., an entity that assigned
its rights in the patents-in-suit to Imperium.

45a
Appendix D
is exceptional under § 285. Brooktree Corp. v. Advanced
Micro Devices, Inc., 977 F.2d 1555, 1582 (Fed. Cir. 1992).
Nevertheless, “the willfulness of the infringement by the
accused infringer may be a sufficient basis in a particular
case for finding the case ‘exceptional’ for purposes of
awarding attorney fees to the prevailing patent owner.”
Golight, Inc. v. Wal-Mart Stores, Inc., 355 F.3d 1327,
1340 (Fed. Cir. 2004); see Serio-US Indus., Inc. v. Plastic
Recovery Techs. Corp., 459 F.3d 1311, 1321 (Fed. Cir.
2006) (“Exceptional cases usually feature some material,
inappropriate conduct related to the matter in litigation,
such as willful infringement, fraud or inequitable conduct
. . . .”).
Second, Defenda nt s made mu lt iple mat er ia l
misrepresentations under oath and in their pleadings.
At the beginning of the case, Imperium points out that
Defendants represented in its September 2014 answer
that it did not know of Imperium’s patents until the June
2014 filing of this lawsuit. Later, in an interrogatory
response, Defendants again represented that they did not
know of Imperium’s patents until June 2014. Defendants’
responses remained unchanged after deposition and
other discovery showed these statements to be incorrect.
During trial, Mr. Bang and Mr. Lee gave false testimony
regarding Defendants’ knowledge of the patents-in-suit.
Further, Defendants misrepresented key facts bearing
on infringement and willfulness, including the fact that
Defendants were tracking Imperium’s patents in an
earlier litigation, the extent of Defendants’ discussions
about obtaining Imperium’s patents, and Defendants’
alleged pre-suit analysis of them.

46a
Appendix D
Third, Defendants failed to produce relevant
documents timely. During discovery, around July
2015, Imperium specifically requested emails or other
documents relating to discussions that Mr. Kaler had
with counsel for Imperium in 2011, 2012, 2013, and 2014.
Apparently, Defendants never searched for any such
documents until the fourth day of trial at 2:19 a.m. on
February 4, 2016, when Defendants finally produced the
requested documents. Defendants, however, produced
only documents found on Mr. Kaler’s laptop, omitted any
requested documents from Defendants’ own files. Only
after Imperium and the Court raised the issue of sanctions
did Defendants search their own files for Kaler-related
documents. On the fifth day of trial, Defendants then
produced a handful of hard-copy documents along with
an affidavit from Mr. Bang. This affidavit revealed these
communications and documents between Defendants and
Mr. Kaler were kept on Mr. Bang’s computer in a separate
folder titled, “Imperium.”
Last, Defendants have continued to infringe the ’884
and ’029 Patents—after the jury found infringement, after
the Court entered judgment, after the Court enhanced
damages. The Court considers Defendants’ continued
infringement to be unreasonable, deliberate and willful
in nature, especially in light of the Court’s orders and the
jury’s verdict. Affinity Labs of Tex., LLC v. BMW N. Am.,
LLC, 783 F. Supp. 2d 891, 899 (E.D. Tex. 2011) (“Following
a jury verdict and entry of judgment of infringement and
no invalidity, a defendant’s continued infringement will be
willful absent very unusual circumstances.”).

47a
Appendix D
It should be noted that none of Defendants’ conduct
in isolation makes this case exceptional. However, when
a party does all of these things mentioned above and
continues to infringe the patents-in-suit, the Court can
only conclude this case is exceptional. Accordingly, the
Court awards Imperium its attorney’s fees incurred
during this litigation.
C. Reasonableness of the Fee Request
“[T]he awarding of attorney fees pursuant to 35
U.S.C. § 285 is unique to patent law and therefore subject
to Federal Circuit law.” Special Devices, Inc. v. OEA,
Inc., 269 F.3d 1340, 1343 (Fed. Cir. 2001). The Federal
Circuit has “approv[ed] of use of the lodestar method in
calculating an award of § 285 attorneys’ fees.” Innovention
Toys, LLC v. MGA Entm’t, Inc., No. 07-6510, 2014 WL
1276346, at *2 (E.D. La. March 27, 2014) (citing Mathis v.
Spears, 857 F.2d 749, 755 (Fed. Cir. 1988) (citing Hensley
v. Eckerhart, 461 U.S. 424, 103 S. Ct. 1933, 76 L. Ed. 2d
40 (1982))). Therefore, the Court will apply the two-step
lodestar method.
The Court first calculates the “lodestar” by multiplying
the number of hours an attorney reasonably spent on the
case by an appropriate hourly rate, which is the market
rate in the community for this work. See Smith & Fuller,
P.A. v. Cooper Tire & Rubber Co., 685 F.3d 486, 490 (5th
Cir. 2012). “A reasonable hourly rate is the prevailing
market rate in the relevant legal community for similar
services by lawyers of reasonably comparable skills,
experience, and reputation.” Norman v. Hous. Auth. of

48a
Appendix D
City of Montgomery, 836 F.2d 1292, 1299 (11th Cir. 1988)
(citing Blum v. Stenson, 465 U.S. 886, 895-96 n.11, 104
S. Ct. 1541, 79 L. Ed. 2d 891 (1984)). The relevant legal
community is the community where the district court
sits. See Tollett v. City of Kemah, 285 F.3d 357, 368 (5th
Cir. 2002).
The party seeking reimbursement of attorney’s fees
bears the burden of establishing the number of hours
expended through the presentation of adequately recorded
time records as evidence. See Watkins v. Fordice, 7 F.3d
453, 457 (5th Cir. 1993). The Court should use this time as
a benchmark and then exclude any time that is excessive,
duplicative, unnecessary, or inadequately documented. Id.
The hours remaining are those reasonably expended. Id.
There is a strong presumption of the reasonableness of the
lodestar amount. See Perdue v. Kenny A., 559 U.S. 542,
552, 130 S. Ct. 1662, 176 L. Ed. 2d 494 (2010); Saizan v.
Delta Concrete Prod. Co., 448 F.3d 795, 800 (5th Cir. 2006).
A fter calculating the lodestar, the Court then
considers whether the circumstances of the particular case
warrant an upward or downward lodestar adjustment.
Migis v. Pearle Vision, Inc., 135 F.3d 1041, 1047 (5th Cir.
1998). In making any lodestar adjustment, the Court
looks to twelve Johnson factors. Id. (citing Johnson v. Ga.
Highway Express, Inc., 488 F.2d 714, 717-19 (5th Cir. 1974)
(“(1) the time and labor required for the litigation; (2) the
novelty and difficulty of the questions presented; (3) the
skill required to perform the legal services properly; (4)
the preclusion of other employment by the attorney due to
acceptance of the case; (5) the customary fee; (6) whether

49a
Appendix D
the fee is fixed or contingent; (7) time limitations imposed
by the client or the circumstances; (8) the amount involved
and the result obtained; (9) the experience, reputation and
ability of the attorneys; (10) the ‘undesirability’ of the case;
(11) the nature and length of the professional relationship
with the client; and (12) awards in similar cases.”)).
Here, Imperium asks the Court to award it $6,950,000
in attorney’s fees and $738,079.23 in non-taxable
costs and expenses for litigating this case. In support
of its attorney’s fee request, Imperium provides the
affidavit of its lead counsel, Mr. Alan Fisch (Dkt. #363,
Exhibit 6). Mr. Fisch’s affidavit does not give the Court
enough information to determine the reasonableness of
Imperium’s fair estimate of attorney’s fees. Particularly,
Imperium has not provided the Court with the number of
hours Imperium’s attorneys spent on this case. Watkins v.
Fordice, 7 F.3d at 457. Without this information, the Court
cannot calculate the lodestar. Before granting attorney’s
fees for a specific amount, the Court orders Imperium to
submit documentation, that indicates the hours and billing
rates for all legal assistants, associates, and partners who
worked on this case. 2 See Fed. R. Civ. P. 54(d).
The Court finds Imperium is entitled to its non-taxable
costs or expenses. The Federal Circuit interprets § 285 to
“include those sums that the prevailing party incurs in the
preparation for and performance of legal services related
to the suit.” Mathis, 857 F.2d at 757 (quoting Central Soya,
2. The Court recognizes that Imperium offered to provide the
Court with additional documentation on the particular hours and
work performed by each Imperium attorney (Dkt. #363 at p. 10).

50a
Appendix D
Inc. v. Geo. Hormel & Co., 723 F.2d 1573, 1578 (Fed. Cir.
1983)). Nevertheless, the Court further finds Imperium
may not recover its expert fees. “Section 285 does not
include shifting of expert fees . . . .” Amsted Indus. Inc.
v. Buckeye Steel Castings Co., 23 F.3d 374, 379 (Fed. Cir.
1994). A district court may, however, “invoke its inherent
power to impose sanctions in the form of reasonable expert
fees in excess of what is provided for by statute.” Takeda
Chem. Indus., Ltd. v. MylanLabs., Inc., 549 F.3d 1381,
1391 (Fed. Cir. 2008). “The use of this inherent power is
reserved for cases with ‘a finding of fraud or abuse of the
judicial process.’” Id. (quoting Amsted Indus., 23 F.3d
at 378). The Court elects not to impose sanctions in the
form of Imperium’s expert fees. Imperium has made no
evidentiary showing that Defendants committed fraud or
abused the judicial process to warrant such a sanction.
See MarcTec, LLC, 664 F.3d at 921 (“[N]ot every case
that qualifies as exceptional under § 285 will also qualify
for sanctions under the court’s inherent power.”). Section
285 and the Court’s award of attorney’s fees is adequate
to compensate Imperium for the circumstances of this
case. Therefore, the Court reduces Imperium’s requested
non-taxable costs by $156,397.79.
CONCLUSION
It is therefore ORDERED that Imperium IP Holdings
(Cayman), Ltd.’s Motion for § 285 Attorneys’ Fees and
Non-Taxable Costs (Dkt. #363) is GRANTED IN PART
and DENIED IN PART. The Court awards Imperium
$581,681.44 in non-taxable costs or expenses. To determine
the amount of attorney’s fees awarded to Imperium, the

51a
Appendix D
Court ORDERS Imperium to submit to the Court within
seven days of this Order documentation that indicates the
hours and billing rates for all legal assistants, associates,
and partners who worked on this case.
SIGNED this 13th day of September, 2017.
/s/ Amos L. Mazzant
AMOS L. MAZZANT
UNITED STATES DISTRICT
JUDGE

52a
Appendix E
APPENDIX E — MEMORANDUM
OPINION AND
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT OF
TEXAS, SHERMAN DIVISION,
FILED APRIL 27, 2017
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
Civil Action No. 4:14-CV-00371
Judge Mazzant
IMPERIUM IP HOLDINGS (CAYMAN), LTD.
v.
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
ELECTRONICS AMERICA, INC., SAMSUNG
TELECOMMUNICATIONS AMERICA, LLC,
AND SAMSUNG SEMICONDUCTOR, INC.
April 27, 2017, Decided
April 27, 2017, Filed
MEMORANDUM OPINION AND ORDER
Pending before the Court is Defendants’ Rule 50(b)
Motion for Judgment as a Matter of Law and/or Rule 59
Motion for a New Trial (Dkt. #337). After reviewing the
relevant pleadings, the Court denies Defendants’ motion.

53a
Appendix E
BACKGROUND
On June 9, 2014, Plaintiff filed the instant action
against Defendants, alleging infringement of United
States Patent Nos. 6,271,884 (the “’884 Patent), 7,092,029
(the “’029 Patent”), and 6,836,290 (the “’290 Patent”). On
February 8, 2016, the jury returned a verdict in favor of
Plaintiff. Particularly, the jury found the following: (1)
Defendants infringed Claims 1, 5, 14, and 17 of the ’884
Patent; (2) Defendants infringed Claims 1, 6, and 7 of
the ’029 Patent; (3) Defendants willfully infringed the
patents-in-suit; and (4) Claim 10 of the ’290 Patent was
invalid for obviousness (Dkt. #253). The jury awarded
$4,840,772 in damages for infringement of the ’884 Patent
and $2,129,608.50 in damages for infringement of the
’029 Patent (Dkt. #253). On August 24, 2016, the Court
awarded enhanced damages for willful infringement and
entered final judgment (Dkt. #329; Dkt. #330).
On September 21, 2016, Defendants filed their
renewed motion for judgment as a matter of law (Dkt.
#337). On October 11, 2016, Plaintiff filed a response (Dkt.
#341). On October 24, 2016, Defendants filed a reply (Dkt.
#343). On November 3, 2016, Defendants filed a sur-reply
(Dkt. #346).
LEGAL STANDARDS
Judgment as a Matter of Law
Upon a party’s renewed motion for judgment as a
matter of law following a jury verdict, the Court should

54a
Appendix E
properly ask whether “the state of proof is such that
reasonable and impartial minds could reach the conclusion
the jury expressed in its verdict.” Fed. R. Civ. P. 50(b);
see also Am. Home Assurance Co. v. United Space All.,
378 F.3d 482, 487 (5th Cir. 2004). “The grant or denial of
a motion for judgment as a matter of law is a procedural
issue not unique to patent law, reviewed under the law of
the regional circuit in which the appeal from the district
court would usually lie.” Finisar Corp. v. DirectTV Grp.,
Inc., 523 F.3d 1323, 1332 (Fed. Cir. 2008). “A JMOL may
only be granted when, ‘viewing the evidence in the light
most favorable to the verdict, the evidence points so
strongly and overwhelmingly in favor of one party that the
court believes that reasonable jurors could not arrive at
any contrary conclusion.” Vers ata Software, Inc. v. SAP
Am., Inc., 717 F.3d 1255, 1261 (Fed. Cir. 2013) (quoting
Dresser-Rand Co. v. Virtual Automation, Inc., 361 F.3d
831, 838 (5th Cir. 2004)).
Under Fifth Circuit law, a court should be “especially
deferential” to a jury’s verdict and must not reverse the
jury’s findings unless they are not supported by substantial
evidence. Baisden v. I’m Ready Prods., Inc., 693 F.3d 491,
499 (5th Cir. 2012). “Substantial evidence is defined as
evidence of such quality and weight that reasonable and
fair-minded men in the exercise of impartial judgment
might reach different conclusions.” Threlkeld v. Total
Petroleum, Inc., 211 F.3d 887, 891 (5th Cir. 2000). A motion
for judgment as a matter of law must be denied “unless the
facts and inferences point so strongly and overwhelming in
the movant’s favor that reasonable jurors could not reach
a contrary conclusion.” Baisden, 693 F.3d at 498 (citation

55a
Appendix E
omitted). However, “[t]here must be more than a mere
scintilla of evidence in the record to prevent judgment as
a matter of law in favor of the movant.” Arismendez v.
Nightingale Home Health Care, Inc., 493 F.3d 602, 606
(5th Cir. 2007).
In evaluating a motion for judgment as a matter of
law, a court must “draw all reasonable inferences in the
light most favorable to the verdict and cannot substitute
other inferences that [the court] might regard as more
reasonable.” E.E.O.C. v. Boh Bros. Constr. Co., 731 F.3d
444, 451 (5th Cir. 2013) (citation omitted). However,
“[c]redibility determinations, the weighing of evidence,
and the drawing of legitimate inferences from the facts
are jury functions, not those of a judge.” Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150, 120
S. Ct. 2097, 147 L. Ed. 2d 105 (2000). “[T]he court should
give credence to the evidence favoring the nonmovant as
well as that ‘evidence supporting the moving party that
is uncontradicted and unimpeached, at least to the extent
that the evidence comes from disinterested witnesses.”’
Id. at 151 (citation omitted).
Motion for a New Trial
Under Federal Rule of Civil Procedure 59, a new trial
may be granted to any party to a jury trial on any or all
issues “for any reason for which a new trial has heretofore
been granted in an action at law in federal court.” Fed.
R. Civ. P. 59. In considering a motion for a new trial, the
Federal Circuit applies the law of the regional circuit. z4
Techs., Inc. v. Microsoft Corp., 507 F.3d 1340, 1347 (Fed.

56a
Appendix E
Cir. 2007). “A new trial may be granted, for example, if
the district court finds the verdict is against the weight
of the evidence, the damages awarded are excessive, the
trial was unfair, or prejudicial error was committed in
its course.” Smith v. Transworld Drilling Co., 773 F.2d
610, 612-13 (5th Cir. 1985). “The decision to grant or
deny a motion for a new trial is within the discretion of
the trial court and will not be disturbed absent an abuse
of discretion or a misapprehension of the law.” Prytania
Park Hotel, Ltd. v. Gen. Star Indem. Co., 179 F.3d 169,
173 (5th Cir. 1999).
ANALYSIS
I.

Judgment as a Matter of Law

Defendants move for judgment as a matter of law
on the issues of infringement, validity of the ’884 Patent
and the ’029 Patent, and damages. Defendants argue
the evidence presented at trial was legally insufficient to
support the jury’s verdict.
A.

Direct Infringement

To prove infringement of an asserted patent claim
under 35 U.S.C. § 271, a plaintiff must show the presence
of every element, or its equivalent, in the accused product
or service. Lemelson v. United States, 752 F.2d 1538, 1551
(Fed. Cir. 1985). First, the Court construes the asserted
claim to determine its scope and meaning; and second, the
construed claim must be compared to the accused device
or service. Absolute Software, Inc. v. Stealth Signal, Inc.,

57a
Appendix E
659 F.3d 1121, 1129 (Fed. Cir. 2011) (citing Carroll Touch,
Inc. v. Electro Mech. Sys., Inc., 15 F.3d 1573, 1576 (Fed.
Cir. 1993)). “A determination of infringement is a question
of fact that is reviewed for substantial evidence when tried
to a jury.” ACCO Brands, Inc. v. ABA Locks Mfr. Co., 501
F.3d 1307, 1311 (Fed. Cir. 2007).
1.

Infringement of the ’290 Patent

Defendants claim to be entitled to a judgment of
non-infringement as a matter of law for the ’290 Patent.
Defendants contend that Plaintiff and its infringement
expert, Dr. Cameron Wright, failed to do the following at
trial: (1) identify each of the accused products for the ’290
Patent; (2) establish that the Samsung Galaxy S5 (“Galaxy
S5”) is a representative product for all products accused
of infringing the ’290 Patent; (3) identify the documents
(and portions of these documents) relied upon to show
infringement for all products accused of infringing the ’290
Patent; (4) identify the portions of deposition testimony
that Dr. Wright relied on to establish infringement of
the ’290 Patent; (5) establish that the accused products
actually practice the MIPI standard (Dkt. #337 at p. 3).
The Court disagrees with Defendants’ arguments
and determines substantial evidence supports the jury’s
verdict finding of infringement. At trial, Dr. Wright
asserted that Defendants’ products contain every
limitation of Claim 10 in the ’290 Patent (Dkt. #263, Feb.
2, 2016 A.M. Trial Tr. at 99:10-16). Specifically, Dr. Wright
testified that Defendants infringe this claim with two
models of computers, five models of tablets, and sixteen

58a
Appendix E
phone models, totaling twenty-three accused products
(Dkt. #263, Feb. 2, 2016 A.M. Trial Tr. at 87:21-88:2). Dr.
Wright then stated:
[T]hese are a lot of models here, a lot of
individual models. We can’t walk through every
one, so I’ve chosen as one example product, one
representative, and since they all infringe in
the same way, I can — I can walk through that
product and you can apply it to the others.
(Dkt. #263, Feb. 2, 2016 A.M. Trial Tr. at 88:5-9). As
such, Dr. Wright chose the Galaxy S5 as a representative
product for his infringement opinion. Defendants
maintain that Dr. Wright improperly used the Galaxy S5
as a representative product without meeting Plaintiff’s
burden of establishing how the other accused products
function and operate in the same way (Dkt. #337 at p.
4). Defendants are incorrect. In TiVo, Inc. v. EchoStar
Commc’ns Corp., the Federal Circuit noted, “[T]here
is nothing improper about an expert testifying in detail
about a particular device and then stating that the same
analysis applies to other allegedly infringing devices that
operate similarly, without discussing each type of device
in detail.” 516 F.3d 1290, 1308 (Fed. Cir. 2008). Dr. Wright
testified that he reviewed documentation related to the
accused products and concluded that the Galaxy S5 and
the remaining accused products employ the same interface
and infringe in basically the same way (Dkt. #263, Feb.
2, 2016 A.M. Trial Tr. at 88:12-14; Dkt. #263, Feb. 2, 2016
A.M. Trial Tr. at 97:20-99:16). Defendants were free to
cross-examine Dr. Wright on this testimony, but they did

59a
Appendix E
not. The Court finds that Dr. Wright was justified in using
the Galaxy S5 as a representative product for the other
accused products in his infringement analysis.
To prove infringement, Dr. Wright walked through
the elements of Claim 10 and explained how the Galaxy
S5 infringes each and every element (Dkt. #263, Feb. 2,
2016 A.M. Trial Tr. at 88:3-97:19). Dr. Wright testified
that he examined a large body of evidence that included
interrogatory responses, documents, depositions, and
source code to support his opinion (Dkt. #263, Feb. 2,
2016 A.M. Trial Tr. at 84:14-19). Defendants contest Dr.
Wright’s testimony because he did not present the jury
with every piece of data supporting his opinion. Rule 705
of the Federal Rules of Evidence allows an expert to offer
an opinion without disclosing the underlying facts or data
making up such opinion. Fed. R. Evid. 705. “The expert
may in any event be required to disclose the underlying
facts or data on cross-examination.” Id. Here, Dr. Wright
presented the jury with some of the documentary evidence
that formed his opinion (Dkt. #263, Feb. 2, 2016 A.M.
Trial Tr. at 89:18-19, 90:6-10 (introducing a Galaxy S5
datasheet for image processing that shows the Galaxy
S5 used a CMOS image sensor); Dkt. #263, Feb. 2, 2016
A.M. Trial Tr. at 91:1-7 (referring to a user guide for
Defendants’ interface)). Defendants had the opportunity
to cross-examine him about the factual underpinnings of
this opinion. See Daubert v. Merrell Dow Pharms., Inc.,
509 U.S. 579, 596, 113 S. Ct. 2786, 125 L. Ed. 2d 469 (1993)
(“Vigorous cross-examination, presentation of contrary
evidence, and careful instruction on the burden of proof
are the traditional and appropriate means of attacking

60a
Appendix E
shaky but admissible evidence.” (citing Rock v. Arkansas,
483 U.S. 44, 61, 107 S. Ct. 2704, 97 L. Ed. 2d 37 (1987))).
Nevertheless, whether Defendants used that opportunity
effectively goes to the weight of the proffered testimony
rather than its admissibility. “Determining the weight
and credibility of the evidence is the special province of
the trier of fact.” Inwood Labs., Inc. v. Ives Labs., Inc.,
456 U.S. 844, 856, 102 S. Ct. 2182, 72 L. Ed. 2d 606 (1982).
Defendants finally assert that Plaintiff has not shown
that Defendants’ accused products meet the Court’s claim
construction. The Court construed “an image processor
connected to the CMOS image sensor to receive the signals
output by the data interface circuit” of Claim 10 to mean
“a processor connected to the CMOS image sensor for
processing image data received from the single-ended and
differential interfaces” (Dkt. #105 at p. 18). Defendants
contend that their products use the MIPI CSI-2 standard,
which transmits and receives signals using only the
differential interface. Because the accused products
never receive image data over the single-ended interface,
Defendants claim that their products do not meet the claim
limitation under the Court’s construction. Defendants’
arguments are contrary to the Court’s construction and
are rejected. In construing Claim 10, the Court did not
require both the single-ended and differential interfaces
to receive image data. Rather, the image processor should
process image data received from the single-ended and
differential interfaces. The parties agree that differential
interfaces transmit image data, but they dispute whether
control signals, transmitted by Defendants’ single-ended
interface, are image data. Plaintiff put forth sufficient

61a
Appendix E
evidence to allow the jury to weigh the competing
testimony, make credibility determinations, and decide
whether the claim limitation was met (Dkt. #263, Feb.
2, 2016 A.M. Trial Tr. at 96:20-97:12-15 (mentioning the
single-ended interface in Defendants’ accused products
transmit control signals); Dkt. #263, Feb. 2, 2016 A.M.
Trial Tr. at 62:22-63:7 (disputing whether image data
includes control signals)).
Accordingly, the Court denies Defendants’ motion for
judgment as a matter of law for non-infringement of the
’290 Patent.
2.

Infringement of the ’029 Patent

Defendants make three arguments for why they
should be entitled to a judgment of non-infringement for
the ’029 Patent. First, Defendants argue that Dr. Wright
and Plaintiff failed to prove that Defendants infringed
Claims 1, 6, and 7. Second, Defendants argue that Plaintiff
has not shown that the element of “generating a look-up
table” was satisfied and performed in the United States.
Third, Defendants argue that Plaintiff has not presented
evidence to prove the accused products “generat[e] a
preparatory light for a predetermined duration.”’029
Patent at 11:42-43.
First, substantial evidence supports the jury’s verdict
that the accused products infringe Claims 1, 6, and 7 of
the ’029 Patent. Dr. Wright testified that Defendants
infringed with fifteen models of phones and fifty-two
models of cameras, but he did not examine every model

62a
Appendix E
of phone and camera (Dkt. #263, Feb. 2, 2016 A.M. Trial
Tr. at 102:10-11, 21-23). Instead, he stated, “What tells you
things is the documentation by the person that designed
and manufactured that device. And so I turned to the
documentation that describes how [Defendants] designed
it, how [the devices] work, what the functionality is. Just
staring at the inside of a device wouldn’t help me at all.”
(Dkt. #263, Feb. 2, 2016 A.M. Trial Tr. at 103:6-10). In
this review of documentation, Dr. Wright discovered
that Defendants use three different algorithms—the
Strobo algorithm, the Flash aE algorithm, and the Flash
algorithm—to infringe (Dkt. #263, Feb. 2, 2016 A.M. Trial
Tr. at 103:13-104:1). Dr. Wright associated each algorithm
with a representative product and explained how each
product satisfies every limitation of Claims 1, 6, and 7.
For the Strobo algorithm, Dr. Wright selected a WB2100
digital camera (Dkt. #263, Feb. 2, 2016 A.M. Trial Tr. at
104:16-111:14 (indicating infringement of Claim 1); Dkt.
#264, Feb. 2, 2016 P.M. Trial Tr. at 13:8-18 (indicating
infringement of Claim 6); Dkt. #264, Feb. 2, 2016 P.M.
Trial Tr. at 15:5-19 (indicating infringement of Claim 7)).
For the Flash aE algorithm, Dr. Wright selected a Galaxy
Note 2 mobile phone (Dkt. #264, Feb. 2, 2016 P.M. Trial
Tr. at 4:1-8:25 (indicating infringement for Claim 1); Dkt.
#264, Feb. 2, 2016 P.M. Trial Tr. at 13:22-14:10 (indicating
infringement for Claim 6); Dkt. #264, Feb. 2, 2016 P.M.
Trial Tr. at 15:5-19 (indicating infringement for Claim
7)). For the Flash algorithm, Dr. Wright selected a NX10 digital camera (Dkt. #264, Feb. 2, 2016 P.M. Trial Tr.
at 9:15-12:22 (indicating infringement for Claim 1); Dkt.
#264, Feb. 2, 2016 P.M. Trial Tr. at 14:13-22 (indicating
infringement for Claim 6); Dkt. #264, Feb. 2, 2016 P.M.

63a
Appendix E
Trial Tr. at 15:5-19 (indicating infringement for Claim
7)). Based on Dr. Wright’s testimony and his examination
of the representative products, the Court determines a
reasonable jury could conclude that the accused products
infringe the ’029 Patent.
Defendants argue that Dr. Wright and Plaintiff did
not identify the products accused of infringing the ’029
Patent or establish the use of representative products
for the remaining accused products. Defendants further
argue that Dr. Wright did not identify the evidence he
used to support his infringement opinion. Federal Circuit
precedent allows presentation of expert testimony that
analyzes infringement of a representative product on an
element-by-element basis, followed by a summary opinion
that all the other accused products infringe based on the
same analysis. TiVo, 516 F.3d at 1308. Here, the use of
representative products was proper. Dr. Wright testified
that the remaining accused products infringe in the same
manner as the representative products (Dkt. #264, Feb.
2, 2016 P.M. Trial Tr. at 16:13-14, 20-22). He explained
that he reached this conclusion by consulting Defendants’
interrogatory responses, user guides and manuals, source
code, deposition testimony, and exposure guide libraries
(Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at 16:5-12, 16-19).
Defendants were free to cross-examine Dr. Wright on
this testimony. However, the record does not indicate that
Defendants challenged Dr. Wright’s use of representative
products for the remaining accused products. As explained
previously, Federal Rule of Evidence 705 allows an expert
to state an opinion without testifying to the underlying
facts or data. Fed. R. Evid. 705. This rule puts the

64a
Appendix E
responsibility on Defendants to contest Dr. Wright’s
opinion and the factual bases supporting that opinion.
Again, the record does not indicate that Defendants crossexamined Dr. Wright on this matter. Thus, the Court
disagrees with each of these arguments.
Second, substantial evidence supports the jury’s
finding that the accused products “generat[e] a look-up
table storing associated image strobe durations and power
values” and do such in the United States. ’029 Patent at
11:54-57. Dr. Wright testified that the look-up table is
necessary for the camera to understand how the flash
works (Dkt. #263, Feb. 2, 2016 A.M. Trial Tr. at 109:19-21).
Particularly, the table determines the appropriate length
of the flash and the appropriate brightness (Dkt. #263,
Feb. 2, 2016 A.M. Trial Tr. at 109:22-24). Additionally, Dr.
Wright testified that each algorithm generates a look-up
table when the camera or phone is turned on. See Dkt.
#263, Feb. 2, 2016 A.M. Trial Tr. at 110:25-111:6 (“And
these [values for appropriate durations and brightness]
will then get loaded into the camera so the camera knows
something about its own flash unit. Otherwise, it wouldn’t
know enough about its own flash unit. And this . . . gets
figured out ahead of time and is loaded into the camera,
and when you turn the camera on, that information
then gets loaded into memory, and it generates that
table.”); see also Dkt. #263, Feb. 2, 2016 A.M. Trial Tr.
at 110:9-18 (describing the look-up table for the Strobo
algorithm); Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at
7:18-8:18 (describing the look-up table for the Flash aE
algorithm); Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at 12:720 (describing the look-up table for the Flash algorithm).

65a
Appendix E
Defendants argue that their mobile phones use LEDs as
flashes (instead of flash lamps or strobe lamps filled with
Xenon gas) and therefore do not use look-up tables (Dkt.
#337 at p. 10). Defendants offered testimony from their
non-infringement and invalidity expert, Kenneth Parulski
(“Parulski”), to rebut Plaintiff’s testimony. Parulski
stated, “[T]he emission of light from a mobile phone from
an LED is constant as a function of time. So there’s no need
to have a look-up table that characterizes the emission.”
(Dkt. #319, Feb. 4, 2016 A.M. Trial Tr. at 66:18-21).
Instead, he explained, “You can use multiplication in order
to multiply the intensity by the amount of time it’s on, if
you wanted to determine the amount of light that’s being
emitted.” (Dkt. #319, Feb. 4, 2016 A.M. Trial Tr. at 66:2124). When there is conflicting testimony, the jury, rather
than the Court, makes credibility determinations and
decides which testimony to believe. MobileMedia Ideas
LLC, v. Apple, Inc., 780 F.3d 1159, 1168 (Fed. Cir. 2015).
Thus, a reasonable jury could conclude that Defendants’
accused products “generate a look-up table.”
Plaintiff also presented substantial evidence that the
accused products generate look-up tables in the United
States. Dr. Wright testified that a phone or camera
generates a look-up table when it is turned on. Plaintiff
then offered evidence of the number of accused products
sold in the United States, where pictures and videos are
taken (Dkt. #266, Feb. 3, 2016 A.M. Trial Tr. at 122:13-14
(indicating Defendants sold 106,480,425 accused products
that infringe the ’029 Patent)). Dr. Wright testified:

66a
Appendix E
[W]e have heard testimony in the last few days
that over a hundred million units have been sold
in the United States. So these . . . operations
that are part of the anti-flicker algorithm that
Samsung uses, these are automatic. They’re
part of the automatic-exposure mode. You turn
. . . the camera on, you turn the phone on, these
modes are . . . operating in the background. The
flicker algorithm is running in the background.
. . . [T]he statement that this is not performed
in the United States is wrong.
(Dkt. #275, Feb. 5, 2016 P.M. Trial Tr. at 129:19-130:4).
To rebut these contentions, Parulski testified that
Defendants’ cameras generate a look-up table during the
manufacturing process, which does not take place in the
United States (Dkt. #319, Feb. 4, 2016 A.M. Trial Tr. at
70:3-73:25). After considering the proffered testimonies
and evidence, a reasonable jury could conclude that
Defendants’ accused products satisfy this claim limitation
in the United States.
Third, substantial evidence supports the jury’s finding
that the accused products “generat[e] a preparatory light
for a predetermined duration.” ’029 Patent at 11:42-43.
The Court construed this limitation to mean “preparatory
light emitted for an amount of time that is determined
before emitting the light” (Dkt. #105 at p. 21). Defendants
argue that none of the evidence produced at trial shows
that their mobile phones meet this limitation. Defendants
do not dispute that the accused digital cameras meet this
limitation. At trial, Dr. Wright examined the Flash aE
algorithm for the Galaxy Note 2 and testified that the

67a
Appendix E
accused mobile phones emit a preflash for predefined
duration (Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at 4:2325). He stated that without a preflash for a predefined
duration, the mobile phone camera would not operate
properly (Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at 5:16). Parulski responded that Defendants’ mobile phones
do not infringe because the length of the preflash is not
known before the camera emits a preflash light (Dkt.
#270, Feb. 4, 2016 A.M. Trial Tr. at 57:9-12). He stated
that the length of the preflash changes to set the focus
and exposure (Dkt. #270, Feb. 4, 2016 A.M. Trial Tr.
at 57:16-58:4). Defendants also point to Dr. Wright’s
admission on cross-examination that the length of the
preflash is not known before the camera emits a preflash
light (Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at 48:23-49:2).
Plaintiff argues that this alleged admission misinterprets
Dr. Wright’s testimony. Despite this disputed admission
and contrary testimony from Parulski, the Court will not
make credibility determinations or weigh the evidence
and testimony presented to the jury. The Court finds that
Plaintiff presented substantial evidence for a reasonable
jury to conclude that the accused products satisfy this
claim limitation.
Accordingly, the Court denies Defendants’ motion for
judgment as a matter of law for non-infringement of the
’029 Patent.
3.

Infringement of the ’884 Patent

Defendants assert that their products do not, as a
matter of law, infringe Claims 1, 5, 14, and 17 of the ’884
Patent.

68a
Appendix E
Defendants first argue Plaintiff neither identified the
products accused of infringement nor established the use
of the Galaxy S2 as a representative for the other accused
products. As already explained, use of a representative
product to prove infringement for other accused products
is proper under Federal Circuit law. TiVo, 516 F.3d at
1308. Plaintiff presented substantial evidence that the
Galaxy S2 is a representative product. At trial, Dr. Wright
explained that the ’884 Patent solves the problem of flicker
effect when a video is taken under fluorescent lights. Dr.
Wright testified that Defendants infringe the ’884 Patent
with twenty-one phones, three computers, and five tablets
(Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at 18:19-19:7).
He further testified that he chose the Galaxy S2 as a
representative product because it infringes the asserted
claims in the same way as the other accused products
(Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at 19:16-18). Dr.
Wright then described how the Galaxy S2 infringes each
of the asserted claims (Dkt. #264, Feb. 2, 2016 P.M. Trial
Tr. at 19:19-32:7). To support his infringement opinion for
the remaining phones, tablets, and computers, Dr. Wright
stated he considered each accused product, Defendants’
interrogatory responses, Defendants’ documentation
about flicker, and deposition testimony (Dkt. #264, Feb.
2, 2016 P.M. Trial Tr. at 32:19-34:2). Defendants were free
to rebut Dr. Wright’s testimony and his use of the Galaxy
S2 as a representative product. However, the record does
not indicate that Defendants’ cross-examined Dr. Wright
about his use of a representative product.
Defendants also argue that Dr. Wright did not identify
the documents used to support his infringement opinion.

69a
Appendix E
Dr. Wright was not required to testify about the facts
and data underlying his expert opinion unless Defendants
cross-examined him regarding such facts and data. Fed
R. Evid. 705. Again, the record does not indicate that
Defendants challenged Dr. Wright’s testimony in such a
manner.
Next, Defendants contend that Plaintiff has not
established the accused products satisfy the “adjusting
while maintaining” limitation of the asserted claims.
Defendants also contend that they do not perform this
limitation in the United States. The record does not
support either of these arguments. The asserted claims
require “adjusting the integration time while maintaining
the integration time at an integral multiple of the period
of periodic intensity” to vary the gain or brightness. ’884
Patent at 7:3-6. Dr. Wright testified that Defendants’
technical documents show the accused products fulfill this
claim limitation. Dr. Wright then referenced a document
titled “Flicker Description” and explained that Defendants
control the overall gain by adjusting the integration time
and constraining it to integer multiples of the lighting (Dkt.
#264, Feb. 2, 2016 P.M. Trial Tr. at 24:6-11 (referring to
Pl.’s Exhibit #22)). Defendants offered Dr. Dean Neikirk
to rebut Dr. Wright’s testimony. Dr. Neikirk testified that
graphs in Defendants’ technical documentation support a
finding of non-infringement. Particularly, he pointed to an
exposure graph that depicted the integration time was not
maintained at any integer multiple of lighting (Dkt. #271,
Feb. 4, 2016 P.M. Trial Tr. at 110:2-112:23 (describing Pl.’s
Exhibit #523 at p. 23)). Dr. Wright disagreed with Dr.
Neikirk and offered another interpretation of the same

70a
Appendix E
exposure graph (Dkt. #275, Feb. 5, 2016 P.M. Trial Tr.
at 130:6-131:22 (stating the only two exposures labeled
on the graph, Exposure 1 and Exposure 2, indicate the
use of integration times at integer multiples)). Since
there was conflicting testimony regarding this claim
limitation, “the jury [was] permitted to make credibility
determinations and believe the witness it consider[ed]
more trustworthy.” MobileMedia Ideas LLC, 780 F.3d
at 1168. The Court determines that Plaintiff presented
the substantial evidence with substantial evidence such
that a reasonable jury could conclude that Defendants’
accused products satisfy this claim limitation.1 The Court
also determines that Plaintiff presented substantial
evidence that Defendants’ accused products infringe the
asserted claims in the United States. See Dkt. #266, Feb.
3, 2016 A.M. Trial Tr. at 122:15-16 (indicating Defendants
sold 121,019,298 accused products that infringe the
1. With respect to Defendants’ products that include thirdparty image processors, Defendants state that Plaintiff did not
present any evidence of how these devices operate. Defendants argue
that Plaintiff must show how those third-party image processors
are configured and function. The Court disagrees. After describing
infringement for the Galaxy S2 as a representative product, Dr.
Wright testified that the remaining accused phones, which include
third-party image processors, infringe the asserted claims. He
reached this conclusion by examining each accused product and
documentation from Defendants and from Qualcomm, a vendor that
makes image processors for the accused products (Feb. 2, 2016 P.M.
Trial Tr., Dkt. #264 at 32:21-33:7). Defendants were free to crossexamine Dr. Wright on this testimony and the underlying facts and
data making up his opinion. Therefore, a reasonable juror could have
concluded that the accused products and any third-party processors
therein meet the limitations recited in the asserted claims.

71a
Appendix E
’884 Patent); Dkt. #275, Feb. 5, 2016 P.M. Trial Tr. at
129:16-130:4 (stating the anti-flicker algorithm is part
of the automatic-exposure mode, which operates in the
background of accused products sold in the United States).
Finally, Defendants argue Plaintiff has not shown
the “integration time adjustment block” limitation exists
in any of the accused products. Defendants contest
Dr. Wright’s testimony because he attempted to show
the accused devices satisfy the “coupled” limitation by
satisfying other limitations in the claim (Dkt. #337 at p.
14). The Court finds that Plaintiff submitted substantial
evidence to show infringement of this limitation. Asserted
Claim 14 and dependent Claim 17 require “an integration
time adjustment block coupled to the programmable
integration time circuitry.”’884 Patent at 7:52-53. Dr.
Wright testified the accused products meet this claim
element (Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at 22:1620). Dr. Wright explained that Defendants’ technical
data sheet and application note refer to an auto flicker
algorithm that prevents flicker by using an integration
time limited to integer multiples (Dkt. #264, Feb. 2,
2016 P.M. Trial Tr. at 21:5-22:14 (examining Pl.’s Exhibit
#482 at p. 34 and Pl.’s Exhibit #582 at p. 84)). He further
explained that the auto flicker algorithm is the integration
time adjustment block and the integration time control
circuitry is the programmable integration time circuitry
(Dkt. #264, Feb. 2, 2016 P.M. Trial Tr. at 20:16-21:3,
21:5-22:20 (identifying the integration time adjustment
block and programmable integration circuitry as recited
in the asserted claims)). Dr. Wright acknowledged that if
the adjustment block was not coupled to the adjustment

72a
Appendix E
circuitry, then the product would not function (Dkt. #275,
Feb. 5, 2016 P.M. Trial Tr. at 133:6-13). Thus, a reasonable
jury could conclude that Defendants’ accused products
meet this claim limitation.
Accordingly, the Court denies Defendants’ motion for
judgment as a matter of law for non-infringement of the
’884 Patent.
B. Induced Infringement
Section 271(b) provides that “[w]hoever actively
induces infringement of a patent shall be liable as an
infringer.” 35 U.S.C. § 271(b). “In order to prevail on
an inducement claim, the patentee must establish first
that there has been direct infringement, and second that
the alleged infringer knowingly induced infringement
and possessed specific intent to encourage another’s
infringement.” ACCO Brands, Inc., 501 F.3d at 1312. In
other words, “inducement requires evidence of culpable
conduct, directed to encouraging another’s infringement,
not merely that the inducer had knowledge of the direct
infringer’s activities.” DSU Med. Corp. v. JMS Co., 471
F.3d 1293, 1306 (Fed. Cir. 2006) (en banc). “[S]pecific intent
may be inferred from circumstantial evidence where a
defendant has both knowledge of the patent and specific
intent to cause the acts constituting infringement.” Ricoh
Co. v. Quanta Comput. Inc., 550 F.3d 1325, 1342 (Fed.
Cir. 2008). “[L]iability for induced infringement can only
attach if the defendant knew of the patent and knew as well
that ‘the induced acts constitute patent infringement.’”
Commil USA, LLC v. Cisco Sys., Inc., 135 S. Ct. 1920,

73a
Appendix E
1926, 191 L. Ed. 2d 883 (2015) (quoting Global-Tech
Appliances, Inc. v. SEB S.A., 563 U.S. 754, 131 S. Ct. 2060,
2068, 179 L. Ed. 2d 1167 (2011)). A patentee can satisfy the
knowledge requirement by showing actual knowledge or
willful blindness. Global-Tech, 131 S. Ct. at 2068. Under
the doctrine of willful blindness, the defendant must (1)
believe subjectively that there is a high probability that a
fact exists; and (2) take deliberate actions to avoid learning
of that fact. Id. at 2070-71. A plaintiff may prove the intent
element of inducement through circumstantial evidence.
Lucent Techs., Inc. v. Gateway, Inc., 580 F.3d 1301, 1322
(Fed. Cir. 2009). “Evidence of active steps taken to induce
infringement, such as advertising an infringing use, can
support a finding of an intention for the product to be used
in an infringing manner.” Id. (citing DSU Med. Corp., 471
F.3d at 1305).
The jury found that Defendants induced infringement
of asserted claims for the ’029 and ’884 Patents. Defendants
argue that no reasonable jury could have found that they
had actual knowledge or committed willful blindness to
constitute induced infringement.
There is substantial evidence to support a verdict of
induced infringement. First, as already explained, the
Court finds that Plaintiff presented substantial evidence
of direct infringement of the patents-in-suit. Second,
Plaintiff presented substantial evidence Defendants
“knowingly induced infringement and possessed the
specific intent to encourage another’s infringement.”
ACCO Brands, Inc., 501 F.3d at 1312. It is undisputed
that Defendants knew of the asserted patents. At trial,

74a
Appendix E
Defendants offered two witnesses, Mr. Bang and Mr.
Lee, who testified about Defendants’ knowledge of
Plaintiff’s patents. Mr. Bang testified that Defendants
discontinued discussions with Plaintiff regarding its
patent portfolio and did not perform an analysis of
Plaintiff’s patents after 2011. Mr. Bang further testified
that he did not review any pleadings related to Plaintiff’s
earlier lawsuit against other smartphone Defendants or
monitor the progress of that litigation. Mr. Lee testified
that Defendants determined that Plaintiff’s patents were
not worth acquiring. In the middle of trial, Defendants
produced previously undisclosed documents regarding
facts within the personal knowledge of Mr. Bang and Mr.
Lee. The Court stated, “This evidence contradicts the
sworn testimony of Mr. Bang and Mr. Lee and indicates
that the testimony that Mr. Bang and Mr. Lee gave about
[Defendants’] discussion with [Plaintiff] and its analysis
of [Plaintiff’s] patents was false and therefore not worthy
of belief.” (Dkt. #275, Feb. 5, 2016 P.M. Trial Tr. at 112:913). The Court then struck these portions of Mr. Bang
and Mr. Lee’s testimony from the record and instructed
the jury to disregard the testimonies on this issue (Dkt.
#275, Feb. 5, 2016 P.M. Trial Tr. at 112:14-17).
Plaintiff also presented evidence that Defendants
took active steps to encourage or intend their customers
to infringe the asserted patents. See Pl. Exhibit #276
(describing the desirable features of an infringing camera
in a product-offering guide); Pl. Exhibit #397 at 40,
59-61 (instructing how to use infringing features of the
WB21000); Pl. Exhibit #334 at 79-81 (instructing how to
take photos); Pl. Exhibit #166 (advertising the camera as

75a
Appendix E
a key feature of an infringing product); Defs’ Exhibit #681
(advertising the camera in an infringing product)). A jury
could infer the specific intent to induce infringement from
the offered circumstantial evidence. Lucent Techs., 580
F.3d at 1322. As such, a reasonable jury could find that
Defendants were liable for induced infringement.
Further, Defendants argue that they held a good-faith
belief in their non-infringement defenses, which shows
a lack of intent for active inducement. “[T]he proper
focus of indirect infringement analysis is on the subject
knowledge of the accused infringer” rather than the
objective reasonableness of non-infringement positions.
Unwired Planet, LLC v. Apple Inc., 829 F.3d 1353, 1364
(Fed. Cir. 2016). Whether Defendants had a good-faith
belief in their non-infringement defenses was not an issue
tried before the jury. Because Defendants never asserted
this defense for induced infringement during trial, a
reasonable jury could have concluded that Defendants
induced infringement of the asserted patents.
Accordingly, the Court denies Defendants’ motion for
judgment as a matter of law for non-induced infringement.
C.

Invalidity

Defendants assert that their experts, Parulski and
Dr. Neikirk, provided clear, convincing, and specific
evidence that the ’029 and the ’884 Patents are invalid on
the grounds of anticipation and obviousness.

76a
Appendix E
1.

Obviousness of ’029 Patent

A patent is invalid for obviousness “if the differences
between the claimed invention and the prior art are such
that the claimed invention as a whole would have been
obvious before the effective filing date of the claimed
invention to a person having ordinary skill in the art
to which the claimed invention pertains.” 35 U.S.C. §
103. Obviousness is a legal determination based upon
underlying factual findings. Soverain Software LLC v.
Newegg Inc., 705 F.3d 1333, 1336 (Fed. Cir. 2013). The
factual findings are based upon several factors, including
“(1) the scope and content of the prior art, (2) the difference
between the prior art and the claimed invention, (3) the
level of ordinary skill in the field of the invention, and (4)
any relevant objective considerations.” Id. (citing Graham
v. John Deere Co., 383 U.S. 1, 17-18, 86 S. Ct. 684, 15 L.
Ed. 2d 545 (1966)). Although the Court must determine
the ultimate legal question of obviousness, the Court must
presume the jury resolved all underlying factual findings
in favor of the verdict and accept the jury’s findings if
supported by substantial evidence. Kinetic Concepts, Inc.
v. Smith & Nephew, Inc., 688 F.3d 1342, 1356-57 (Fed.
Cir. 2012).
Defendants argue that they demonstrated by clear
and convincing evidence the invalidity of the ’029 Patent.
Specifically, Defendants state Claims 1, 6, and 7 are
obvious in view of the combination of U.S. Patent No.
6,195,127 (“Sugimoto”) and published Japanese Patent
Application No. 1999-119288 (“Shimada”).

77a
Appendix E
For the first time, Defendants argue that the asserted
claims are obvious in view of the Nikon D1 camera used
together with the SB-28 or SB028DX flash units. During
trial, Defendants did not present any evidence of how the
Nikon system discloses these claim limitations. The Court
will not consider this argument in determining whether a
reasonable jury could have found the ’029 Patent invalid
for obviousness.
Claim 1 recites:
A method of adjusting image lighting, the
method comprising:
g ene r at i n g a p r ep a r at or y l i ght for a
predetermined preparatory duration;
capturing a preparatory image while generating
the preparatory light, wherein the preparatory
image is represented by preparatory image
data;
determining an average preparatory image
luminance of the preparatory image based on
the preparatory image data and weighing at
least a subset of the preparatory image data;
generating a supplemental strobe duration
based on the average preparatory image
luminance and luminance weightings; and

78a
Appendix E
generating a look-up table storing associated
image strobe durations and power values
including a preparatory image strobe duration
and associated preparatory power value.
’029 Patent at 11:40-58. Claim 6 is a dependent claim that
includes all of the limitations of Claim 1. While Claim 7
includes all of the limitations of Claim 1 and adds the
requirement of “a memory having machine readable
instructions” or sets of “machine readable instructions”
relating to each limitation.
At trial, Parulski testified that Sugimoto discloses
each limitation of the asserted claims, except for a look-up
table that stores image strobe duration and power values.
The remaining limitation, Parulski noted, was disclosed
in the Shimada reference. Parulski walked through the
Sugimoto and Shimada references and explained how the
asserted claims were obvious in view of the references
(Dkt. #270, Feb. 4, 2016 A.M. Trial Tr. at 29:16-46:13).
Parulski mentioned that a person of ordinary skill in
the art at the time of the ’029 Patent would combine the
teachings of Sugimoto with Shimada (Dkt. #270, Feb.
4, 2016 A.M. Trial Tr. at 48:9-49:11 (asserting a person
of ordinary skill would combine the Sugimoto with
Shimada because the references are related to the same
field, discuss flash photography, and have overlapping
disclosures)).
Dr. Wright disagreed with Parulski’s testimony.
He indicated the look-up table in Shimada encompasses
only main flash and does not include flash duration as

79a
Appendix E
required by Claim 1 (Dkt. #275, Feb. 5, 2016 P.M. Trial
Tr. at 155:19-20). Dr. Wright also testified that during
the prosecution of the ’029 Patent, the Patent Office
considered the combination of Sugimoto and Sugahara,
a reference Dr. Wright testified as an invention similar
to Shimada (Dkt. #275, Feb. 5, 2016 P.M. Trial Tr. at
155:7-10, 156:6-12).
In light of conflicting testimony from Parulski and Dr.
Wright, a reasonable jury could conclude the combination
of Sugimoto and Shimada does not disclose the look-up
table mentioned in the asserted claims. Thus, the Court is
not convinced that Defendants met their burden of proving
by clear and convincing evidence that Claims 1, 6, and 7
are invalid for obviousness.
Accordingly, the Court denies Defendants’ motion
for judgment as a matter of law for invalidity of the ’029
Patent.
2.

Anticipation of ’884 Patent

A patent is invalidated as anticipated if “the invention
was patented or described in a printed publication” more
than one year before the patent application was filed. 35
U.S.C. § 102(b). To be anticipatory, the prior art reference
must “explicitly or inherently” disclose each and every
element of the claimed invention. In re Gleave, 560 F.3d
1331, 1334 (Fed. Cir. 2009). An anticipatory prior art
reference must also enable “one of skill in the art to
practice an embodiment of the claimed invention without
undue experimentation.” Am. Calcar, Inc. v. Am. Honda

80a
Appendix E
Motor Co., 651 F.3d 1318, 1341 (Fed. Cir. 2011); see also
In re Donohue, 766 F.2d 531, 533 (Fed. Cir. 1985) (“Such
possession is effected if one of ordinary skill in the art
could have combined the publication’s description of the
invention with his own knowledge to make the claimed
invention.”). Finally, the party asserting invalidity must
prove anticipation by clear and convincing evidence. Orion
IP, LLC v. Hyundai Motor Am., 605 F.3d 967, 975 (Fed.
Cir. 2010).
Defendants contend that they demonstrated by clear
and convincing evidence that the ’884 Patent is anticipated
by different prior art references. In particular, Defendants
argue U.S. Patent No. 6,567,123 (“Hashimoto”) anticipates
Claims 1, 5, and 14, and U.S. Patent No. 7,289,145
(“Johnson”) anticipates Claims 1, 5, 14, and 17. Claims 1
and 14 are independent claims. Claim 5 depends on Claim
1, while Claim 17 depends on Claim 14.
At trial, Dr. Neikirk testified that Hashimoto and
Johnson disclosed each and every limitation of the
asserted claims. First, he explained to the jury that
Hashimoto discloses an electronic camera used for making
videos, taking pictures, and adjusting the integration time
or shutter speed to integral multiples of the flicker period
(Dkt. #271, Feb. 4, 2016 P.M. Trial Tr. at 126:22-127:1).
Next, Dr. Neikirk walked through the Johnson patent.
He stated Johnson discloses a camera that uses either
a charged coupled device or a CMOS image system. He
further stated Johnson discusses using shutter speed to
suppress flicker and setting that shutter speed to integer
multiples of a flicker period (Dkt. #271, Feb. 4, 2016 P.M.

81a
Appendix E
Trial Tr. at 147:9-16). Dr. Neikirk pointed to various
figures and line references in Hashimoto and Johnson
to show how the patents anticipate the asserted claims.
In rebuttal, Dr. Wright stated that Hashimoto fails to
disclose the elements of “setting the integration time to an
integral multiple of the period of the periodic intensity”
or “adjusting while maintaining” (Dkt. #275, Feb. 5,
2016 P.M. Trial Tr. at 123:7-124:1) (referring limitations
mentioned in the asserted claims)). He testified that the
Hashimoto patent discusses two specific shutter speeds,
neither of which would reduce flicker in the United States.
Likewise, for the Johnson patent, Dr. Wright testified
that Johnson has very little to do with the ’884 Patent.
In fact, he asserted the Johnson patent is a reformatter
that converts signals from an atypical CCD sensor
with four colors and reformats that information into a
standard video signal with three colors. Dr. Wright also
testified that although Johnson mentions the concept of
a “flickerless mode,” Johnson does not explain how to
achieve this mode (Dkt. #275, Feb. 5, 2016 P.M. Trial Tr.
at 124:2-22).
The Court concludes that substantial evidence
supports the jury’s findings regarding Hashimoto and
Johnson. It was reasonable for the jury to find that
Defendants did not present clear and convincing evidence
of anticipation. A reasonable jury was free to credit Dr.
Wright’s testimony over Dr. Neikirk’s, and it is not the
Court’s role to second guess the credibility determinations
of the jury. SIBIA Neurosciences, Inc. v. Cadus Pharm.
Corp., 225 F.3d 1349, 1355 (Fed. Cir. 2000).

82a
Appendix E
Accordingly, the Court denies Defendants’ motion
for judgment as a matter of law for invalidity of the ’884
Patent.
3.

Obviousness of ’884 Patent

Defendants argue that they demonstrated by clear
and convincing evidence that a combination of prior art
references make Claims 6 and 17 of the ’884 obvious. Claim
6 depends on Claim 1 and adds the step of “detecting the
period of the periodic intensity.” Claim 17 depends on
Claim 14 and adds three additional limitations: an analog,
variable gain stage; an analog to digital converter; and a
gamma correction stage receiving and providing digitized
pixel data. Specifically, Defendants point to the following
obviousness combinations presented during trial: (1) the
combination of Johnson and U.S. Patent No. 5,960,153
(“Oster”) renders Claim 6 obvious; (2) the combination of
Hashimoto and published Japanese Patent Application
H1-204578 (“Kinugawa”) renders Claim 6 obvious; and
(3) the combination of Hashimoto and published Japanese
Patent Application No. H9-318804 (“Hata”) renders Claim
17 obvious.
After reviewing the record, the Court determines
that substantial evidence supports the jury’s finding of
non-obviousness. Defendants offered three obviousness
combinations: Johnson with Oster, Hashimoto with
Kinugawa, and Hashimoto with Hata. During trial,
there was conflicting expert testimony on the question of
whether a person of ordinary skill in the art would have
been motivated to combine the references to reach the

83a
Appendix E
embodiments in Claims 6 and 17. Additionally, Plaintiff
offered evidence supporting the commercial success of the
’884 Patent, a secondary consideration of non-obviousness
(Dkt. #265, Feb. 3, 2016 A.M. Trial Tr. at 17:2-19). The
jury weighed the testimony and concluded that Defendants
failed to show obviousness by clear and convincing
evidence. Thus, a reasonable jury could conclude that
Defendants did not establish by clear and convincing
evidence that the ’884 Patent would have been obvious to
one of ordinary skill in the art at the time of the invention.
Accordingly, the Court denies Defendants’ motion
for judgment as a matter of law on invalidity of the ’884
Patent.
D.

Damages

Defendants assert the evidence presented at trial does
not support the jury’s award of $6,970,380.50 in favor of
Plaintiff. In view of the alleged deficiencies in Plaintiff’s
proof and the methodology used by its expert, Defendants
contend the Court should have granted their Daubert
motion and excluded the testimony. As such, Defendants
present different options for the Court: grant a new trial,
enter a judgment of zero damages, or use the alternative
damages estimate of $2,059.202, supported by Defendants’
expert, Dr. M. Ray Perryman.
Defendants largely recycle arguments made in their
Daubert motion challenging Plaintiff’s damages expert,

84a
Appendix E
Michele M. Riley (“Riley”). 2 For example, Defendants
attack the evidence on which Riley relied and the
methodologies she used to develop her opinion (Dkt.
#337 at pp. 42-46; Dkt. #337 at pp. 46-47). The Court
will not reiterate its analysis regarding the reliability of
Riley’s opinion under Daubert. Instead, the Court adopts
and incorporates its prior decision addressing this issue
(Dkt. #225 at p. 3). See Versata Software, 717 F.3d at 1264
(“Under the guise of the sufficiency of the evidence, SAP
questions the admissibility of Versata’s expert testimony
and whether his damages model is properly tied to the
facts of the case. Such questions should be resolved
under the framework of the Federal Rules of Evidence
and through a challenge under Daubert v. Merrell Dow
Pharms., Inc., 509 U.S. 579, 113 S. Ct. 2786, 125 L. Ed.
2d 469 (1993).”). The issue before the Court is whether
substantial evidence supports the jury’s damages award.
Plaintiff bears the burden of proving its damages. Lucent
Techs., 580 F.3d at 1324. “A jury’s decision with respect to
an award of damages ‘must be upheld unless the amount is
grossly excessive or monstrous, clearly not supported by
the evidence, or based only on speculation or guesswork.’”
Id. at 1310 (quoting State Contracting & Eng’g Corp. v.
Condotte Am., Inc., 346 F.3d 1057, 1072 (Fed. Cir. 2003)).
2. Specifically, Defendants’ present motion reasserts the
following: (1) whether Defendants’ worldwide profits on all products
are a proper basis for the calculation of damages; (2) whether there
was a basis for Riley’s calculation for royalty rates; (3) whether
Plaintiff’s non-arm’s length profit-sharing arrangement with ESS
was sufficient to set any lower bound on damages; (4) whether the
survey information about camera resolution was factually tethered
to the patented benefits and isolated their value; (5) whether Riley’s
reasonableness checks on her calculations of damages were legally
and factually proper (Dkt. #341 at pp. 40-50).

85a
Appendix E
The jury heard arguments and evidence from both
sides regarding damages. The jury was tasked with
weighing the credibility and degree to which it could
rely on the damages figures presented by both parties’
experts. The Court will grant a judgment as a matter of
law on damages or a new trial only if there was insufficient
evidence presented to support the jury’s damages award.
In light of the testimony that was provided at trial, the
Court finds that substantial evidence supported the jury’s
damages determination. To the extent Defendants raise
grounds other than their Rule 702 objections, Defendants’
challenges to Riley’s damages opinion go to the weight of
her testimony. Defendants had ample opportunity to crossexamine Riley, who evidently the jury deemed credible.
Defendants further challenge the jury’s determination
of an intermediate royalty rate that divided Plaintiff’s
calculation of damages in half. Defendants contend there
is no evidentiary basis in the record for this royalty rate
because Riley did not provide any evidence or guidance
for selecting an amount different from the damages she
calculated. The Court disagrees. In Fuji Photo Film
Co., v. Jazz Photo Corp., the Federal Circuit stated,
“[T]he jury is not bound to accept a rate proffered by one
party’s expert but rather may choose an intermediate
royalty rate.” 394 F.3d 1368, 1378 (Fed. Cir. 2005) (citing
Unisplay, S.A. v. Am. Elec. Sign Co., 69 F.3d 512, 519 (Fed.
Cir. 1995)). However, the jury’s royalty amount “must be
within the range encompassed by the whole.” Unisplay,
S.A., 69 F.3d at 519. Riley testified that the range of royalty
for any accused product fell between 2.7 cents and 13.5
cents (Dkt. #267, Feb. 3, 2016 P.M. Trial Tr. at 10:9-16).
The jury’s award of two cents per unit for the ’029 Patent

86a
Appendix E
and four cents per unit for the ’884 Patent. The highest
royalty for any accused product—six cents—falls within
the range encompassed by Riley’s testimony. Thus, the
jury’s award was proper.
Accordingly, the Court denies Defendants’ judgment
as a matter of law and request for a new trial on damages.
II. New Trial
Defendants provide four reasons why they are entitled
to a new trial. The Court will address each reason
separately.
1.

Exclusion of Defendants’ Defense Based on the
Sony License

The Court prevented Defendants from “relying on
Sony image sensors as non-infringing alternatives” and
from presenting “the Sony License defense at trial” (Dkt.
#231 at p. 2).
Defendants assert the Court’s exclusions were an
abuse of discretion and require a new trial on liability
and damages. Defendants argue the Court was erroneous
because (1) Plaintiff concealed its reliance on Sony
sensors throughout this case; and (2) the Court prevented
Defendants from adequately defending the liability and
damages portions of the case.
The Court has already considered and rejected
Defendants’ arguments regarding the Sony license

87a
Appendix E
defense. On January 21, 2016, the Court denied Defendants’
motion for leave to file summary judgment out-of-time
(Dkt. #219). The Court was unconvinced that Plaintiff
concealed its reliance on Sony image sensors. The Court
stated in its Memorandum Opinion and Order:
[M]uch of the information relied upon by
Defendants to support [their] motion for
summary judgment was known, or should have
been known, by Defendants before September
9. First, as Defendants explain, the accused
Samsung-Sony products compromise almost
half of the accused products in this lawsuit
(Dkt. #155 at p. 3). Second, Defendants were
aware that the patents-in-suit include, at least
as one limitation, “an image sensor coupled
to a memory” (Dkt. #1, Ex. C at col. 14, ln.
3). Third, Defendants had identified accused
products that contain, as the only image
sensor, a Sony image sensor (Dkt. #155 at p.
8). Fourth, Defendants had access to the Sony
License Agreement as of April 2, 2015 (Dkt.
#169, Ex. 3). Considering these factors, the
Court finds that even if Plaintiff “obscured”
the fact that it is relying upon Sony image
sensors, Defendants could have been aware
of the potential relevance of the Sony License
regarding what it describes as almost half of
the accused products long before September 9,
2015, such that the timing of the filing was in the
reasonable control of Defendant. This tends to
suggest that the current filing is not untimely
due to “excusable neglect.”

88a
Appendix E
(Dkt. #219 at p. 4). Similarly, in another opinion, the Court
determined that Defendants waived the Sony license
defense by not raising the defense until well beyond the
deadline for summary judgment:
Defendants may have given a boilerplate,
general license defense in [their] answer, but
even in supplementing [their] responses to
interrogatories[,] Defendants only gave an
indication of asserting a license to one or more
asserted claims of the patents-in-suit per
the terms of [their] membership in the MIPI
Alliance (Dkt. #277, Ex. I at pp. 38-42). If
anything, Defendants’ decision to supplement
their answer to interrogatory regarding license
defenses on July 13, 2015, and September
7, 2015, after receiving the Sony License
Agreement on April 2, 2015, indicated an active
intention not to assert the Sony License.
(Dkt. #329 at p. 6). The Court continued:
According to Defendants’ interpretation of the
’029 Patent, not reliant on any of Plaintiff’s
views, the ’029 Patent “teaches that an image
sensor is the specific component that captures
this preparatory image” (Dkt. #277 at p. 2).
Defendants have never presented evidence as
to why, given this understanding of the patent
and knowledge of their own products’ usage
of Sony image sensors, Defendants did not
assert that they may be entitled to assert the

89a
Appendix E
Sony License, particularly if Plaintiff agreed to
Defendants’ understanding of the patents-insuit. After all, Defendants generally pleaded a
boilerplate license defense and presumptively
stated that “Samsung may be entitled to a
license” with respect to [their] membership in
the MIPI Alliance.
(Dkt. #329 at p. 6). Because Defendants almost exclusively
reargue and expound on arguments previously made, the
Court will not analyze them again. The Court instead
adopts and incorporates its prior decisions on the issue
(Dkt. #219; Dkt. #329).
Accordingly, the Court denies Defendants’ motion for
a new trial on liability and damages based on the Court’s
exclusion of the Sony license defense.
2.

Mid-Trial Discovery Sanction

During trial, Defendants produced for the first time
six emails concerning Defendants’ attempts to acquire
image sensor patents. Particularly, Defendants produced
communications between Mr. Bang and Stuart Kaler, a
third-party broker retained by Defendants to explore
whether Plaintiff was interested in selling its patents. Due
to the late production of documents, Plaintiff requested
that the Court impose sanctions to strike Defendants’
laches defense and prevent Defendants from contesting
willfulness. Defendants submitted a brief and a declaration
from Mr. Bang who explained why Defendants did not
identify or produce the emails earlier (Dkt. #238; Dkt.

90a
Appendix E
#238 at Exhibit 1). Mr. Bang indicated that he believed
the communications about Plaintiff with Mr. Kaler ended
in 2011, and he had no recollection of any events happening
on or after mid-2012. Further, Defendants indicated
that Mr. Bang and Mr. Lee testified consistently with
their recollections and about the documents identified
during their deposition preparations. The Court granted
Plaintiff’s requested relief and instructed the jury that
portions of Mr. Bang and Mr. Lee’s testimony were false
and not worthy of belief.
Defendants state the Court’s sanction was an abuse of
discretion, warranting a new trial. They claim the sanction
was disproportionate and extreme, especially in view of
Mr. Bang’s explanation and the Court’s discovery order
that required a specific request from Plaintiff. In addition,
Defendants argue the Court’s instruction regarding Mr.
Bang and Mr. Lee’s testimony improperly invaded the
jury’s determination of a witness’s credibility. These
arguments are without merit.
Federal Rule of Civil Procedure 26(e) provides:
(1) In General. A party who has made a
disclosure under Rule 26(a)—or who has
responded to an interrogatory, request for
production, or request for admission—must
supplement or correct its disclosure or
response:
(A) in a timely manner if the party learns that
in some material respect the disclosure or

91a
Appendix E
response is incomplete or incorrect, and if
the additional or corrective information has
not otherwise been made known to the other
parties during the discovery process or in
writing . . . .
Fed. R. Civ. P. 26(e)(1)(A). Moreover, Federal Rule of Civil
Procedure 37 provides:
(1) If a party fails to provide information or
identify a witness as required by Rule 26(a)
or (e), the party is not allowed to use that
information or witness to supply evidence on
a motion, at a hearing, or at a trial, unless
the failure was substantially justified or
harmless.
Fed. R. Civ. P. 37(c)(1). Rule 37 of the Federal Rules of
Civil Procedure “empowers the courts to impose sanctions
for failures to obey discovery orders.” Smith & Fuller,
P.A. v. Cooper Tire & Rubber Co., 685 F.3d 486, 488 (5th
Cir. 2012); Fed. R. Civ. P. 37(b). The sanctions available
under Rule 37 are flexible, and the court has authority
to apply them in many varied forms, depending on the
facts of each case. “Rule 37 only requires the sanction the
Court imposes hold the scales of justice even.” Guidry v.
Cont’l Oil Co., 640 F.2d 523, 533 (5th Cir. 1981) (internal
quotation marks and citation omitted). Extreme sanctions
are remedies of last resort and are appropriate only when
the deterrent value of Rule 37 cannot be achieved by using
less drastic measures. Batson v. Neal Spelce Assocs., Inc.,
765 F.2d 511, 514 (5th Cir. 1985).

92a
Appendix E
The Court conducted a detailed review of the facts that
warranted sanctions in its August 24, 2016 opinion. First,
the Court found that Defendants did not amend their
disclosures in a timely manner. Defendants indicated in a
sworn response to Interrogatory No. 7 that they knew only
of Plaintiff’s patents when the case started in June 2014.
This response remained unchanged until after depositions
and other discovery showed this to be incorrect. Next,
Defendants did not produce relevant documents during
discovery, violating the Federal Rules of Civil Procedure.
See Fed. R. Civ. P. 26(b)(1), 34(a) (requiring a party, upon
request, to produce any nonprivileged matter that relates
to another party’s claims or defenses). On July 15, 2015,
Plaintiff specifically requested Defendants to produce
emails and other documents related to Mr. Kaler during
the 2012 to 2014 period (Dkt. #240, Exhibit 2 at p. 1-2).
Defendants did not produce such documents before the
September 9, 2015 discovery deadline. See Dkt. #329 at
p. 13 (“Defendants knew at least by July 15, 2015, about
the need to produce e-mails and other documents relating
to Mr. Kaler. . . . Defendants apparently never searched
for nor produced any such documents until the fourth
day of trial at 2:19 a.m. Defendants then only produced
documents found on Mr. Kaler’s laptop during witness
preparations—not any documents from Defendants’
files. Defendants searched their own files for such Kaler
documents only after Plaintiff and the Court had raised
the issue of sanctions.”). Finally, the Court found that
Defendants offered false testimony about Defendants’
knowledge of Plaintiff’s patents. Mr. Bang and Mr. Lee
testified that Defendants did not know of Plaintiff’s
patents until after 2011. However, the evidence produced

93a
Appendix E
indicates that Defendants “did track and attempt to
obtain, despite testimony otherwise, Plaintiff’s patents
for years before this lawsuit” (Dkt. #329 at p. 12). The
Court recognized Defendants’ conduct related to issues of
infringement, willfulness, laches, and credibility. Based
on the Defendants’ conduct before and during trial, the
Court properly issued sanctions it considered just under
the circumstances. Fed. R. Civ. P. 37 (b)(2)(A).
For a new trial, Defendants must demonstrate “the
verdict [was] against the weight of the evidence, the
damages award [was] excessive, the trial was unfair, or
prejudicial error was committed in its course.” Smith, 773
F.2d at 612-13. Defendants have not shown the Court’s
imposition of sanctions meets the standard for a new trial.
Accordingly, the Court denies Defendants’ motion for
a new trial based on mid-trial sanctions.
3.

Willful Infringement

The Supreme Court in Halo Electronics, Inc. v. Pulse
Electronics, Inc., 136 S. Ct. 1923, 195 L. Ed. 2d 278 (2016),
changed the framework for awarding enhanced damages
in cases of willful infringement. Before Halo, a patentee
seeking enhanced damages first needed to show by clear
and convincing evidence that the infringer acted despite
an objectively high likelihood that its actions infringed a
valid patent. Id. at 1930 (citing In re Seagate Tech., LLC,
497 F.3d 1360, 1371 (Fed. Cir. 2007) (en banc)). A patentee
tended not to meet this objective prong where an accused
infringer had a reasonable defense to infringement.

94a
Appendix E
Bard Peripheral Vascular, Inc. v. W.L. Gore & Assocs.,
682 F.3d 1003, 1005-06 (Fed. Cir. 2012). Second, the
patentee had to show the risk of infringement “was either
known or so obvious that it should have been known to
the accused infringer.” In re Seagate, 497 F.3d at 1371.
Halo criticized the objective reckless prong, reasoning
it “excludes from discretionary punishment many of
the most culpable offenders” and “mak[es] dispositive
the ability of the infringer to muster a reasonable (even
though unsuccessful) defense at the infringement trial.”
136 S. Ct. at 1932-33. The Supreme Court explained that
an infringer’s subjective bad faith alone could support an
enhanced damages award. Id. at 1932. Moreover, Halo
made clear that it is the infringer’s state of mind at the
time of the challenged conduct that matters, without
regard to any later reasonable defense at trial. Id. at
1933. After Halo, the Federal Circuit reiterated that “the
factual components of the willfulness question should be
resolved by jury.” WBIP, LLC v. Kohler Co., 829 F.3d 1317,
1341 (Fed. Cir. 2016).
Defendants assert a judgment as a matter of law of
no willfulness or a new trial are required in light of the
Supreme Court’s decision in Halo. Defendants contend a
new trial is necessary because the jury’s determination
of willfulness was under the now-abrogated Seagate
standard rather than under Halo. However, Halo called
into question only the objective prong of Seagate, meaning
a favorable jury finding under the subjective prong
would suffice to establish subjectively willful conduct.
Innovention Toys, LLC v. MGa Entm’t, Inc., 667 Fed.
Appx. 992 (Fed. Cir. 2016). Thus, under Halo, subjective

95a
Appendix E
willfulness alone, intentional or knowing, may support an
award of enhanced damages. Halo, 136 S. Ct. at 1933. In
fact, the Federal Circuit has affirmed enhanced damages
based on jury findings under the subjective prong of
Seagate. See, e.g., WBIP, 829 F.3d at 1341 (affirming the
district court because Halo did not change “the established
law that the factual components of the willfulness question
should be resolved by the jury”).
Defendants next argue that they are entitled to
judgment as a matter of law as to willfulness because there
was insufficient evidence to support the jury’s finding.
Defendants are incorrect. The evidence offered at trial
established that Defendants had pre-suit knowledge of
the patents-in-suit and took no steps to avoid infringement
after becoming aware of the patents. The Court also
instructed the jury that evidence produced at trial
directly contradicted sworn testimony from Mr. Lee
and Mr. Bang, who testified about Defendants’ pre-suit
knowledge of the patents-in-suit (Dkt. #275, Feb. 5, 2016
P.M. Trial Tr., at 111:14-112:16). In addition, the jury found
willful infringement by clear and convincing evidence—a
higher burden of proof than required after Halo. 136 S.
Ct. at 1934 (decreasing the standard for willfulness and
enhanced damages from clear and convincing evidence
to a preponderance of the evidence). The jury had record
evidence from which it could find that Defendants had
knowledge of the patents-in-suit, and thus the jury’s
finding is supported by substantial evidence.
Finally, Defendants argue that Halo converted
the Court’s sanction into a directed verdict because

96a
Appendix E
Defendants could not contest subjective willfulness.
The Court’s instruction did not require the jury to find
willfulness. Rather, the jury was free to decide whether
Plaintiff met its burden on the issue. Further, the Court’s
sanction did not prevent Defendants from establishing
non-infringement or invalidity of the patents-in-suit to
avoid willfulness liability. Similarly, the Court dismisses
this argument.
Defendants’ arguments are insufficient to warrant
the requested relief. Accordingly, the Court denies
Defendants’ motion for judgment as a matter of law of no
willful infringement, or in the alternative, for a new trial
on the issue of willful infringement.
4.

Jury Instructions

Defendants request a new trial on invalidity and
damages, alleging the Court committed two errors in its
jury instructions. The Court declines to grant a new trial
for each of these arguments.
Defendants first argue that the Court erroneously
instructed the jury regarding Defendants’ burden of
proof with respect to anticipatory prior art. With regard
to the burden of proof for anticipatory prior art, the Court
instructed the jury as follows: “Samsung must prove
by clear and convincing evidence that this single item
of prior art must enable one of ordinary skill in the art
to make the invention without undue experimentation.”
(Dkt. #250 at p. 18). The Federal Circuit has explained
that “when an accused infringer asserts that a prior art

97a
Appendix E
patent anticipates specific patent claims, the infringer
enjoys a presumption that the anticipating disclosure
also enables the claimed invention.” Impax Labs., Inc. v.
Aventis Pharms., Inc., 545 F.3d 1312, 1316 (Fed Cir. 2008);
see also Amgen Inc. v. Hoechst Marion Roussel, Inc.,
314 F.3d 1313, 1355 (Fed. Cir. 2003) (deciding an accused
infringer is entitled to have the district court presume the
enablement of material in a prior art patent). A patentee
can overcome this presumption by showing the asserted
prior art patent does not enable the claimed invention. Id.
Assuming the jury instructions were erroneous,
Defendants are not entitled to a new trial. Under Fifth
Circuit law, a party must show two requirements before
the court grants a new trial based on an erroneous jury
instruction. First, the party must demonstrate that “the
charge as a whole creates substantial and ineradicable
doubt whether the jury has been properly guided in
its deliberations.” Hartsell v. Dr. Pepper Bottling Co.,
207 F.3d 269, 272 (5th Cir. 2000) (citation omitted).
Second, even if the jury instructions were erroneous,
the instruction must have affected the outcome of the
case. Id. Defendants asserted two anticipatory prior art
patents against the ’884 Patent, Johnson and Hashimoto.
Defendants neither have demonstrated how the charge as
a whole creates “substantial and ineradicable doubt” nor
have shown how the Court’s error affected the outcome
of the case. In fact, Plaintiff presented evidence that
Johnson and Hashimoto do not disclose all of the claimed
limitations of the ’884 Patent. This evidence alone could
have led to the jury’s verdict of infringement rather than
one of invalidity, meaning enablement may not have been

98a
Appendix E
a material issue for the jury. Thus, Defendants do not
meet the Fifth Circuit’s high burden for a new trial, and
the Court denies Defendants’ motion on this argument.
Defendants then arg ue the Court omitted an
instruction on marking and notice under 35 U.S.C. §
287, which entitled them to a new trial on damages.
District courts have considerable latitude when crafting
jury instructions. The refusal to give a requested
instruction warrants a new trial if the instruction “1)
was a substantially correct statement of law, 2) was
not substantially covered in the charge as a whole, and
3) concerned an important point in the trial such that
the failure to instruct the jury on the issue seriously
impaired the [party’s] ability to present a given [claim].”
Kanida v. Gulf Coast Med. Pers. LP, 363 F.3d 568, 578
(5th Cir. 2004) (alteration in original) (quotation marks
omitted). Here, the requested instruction on marking and
notice is irrelevant because the parties offered little or
no evidence to warrant such an instruction. And even if
the Court’s decision to exclude the requested instruction
was erroneous, it would not rise to the level of reversible
error as set out by the Fifth Circuit. Hartsell, 207 F.3d
at 272 (outlining the requirements a party must meet
before the court grants a new trial based on erroneous
jury instructions).
Accordingly, the Court denies Defendants’ motion for
a new trial based on the jury instructions.

99a
Appendix E
CONCLUSION
It is therefore ORDERED that Defendants’ Rule 50(b)
Motion for Judgment as a Matter of Law and/or Rule 59
Motion for a New Trial (Dkt. #337) is DENIED.
SIGNED this 27th day of April, 2017.
/s/ Amos L. Mazzant		
AMOS L. MAZZANT
UNITED STATES DISTRICT
JUDGE

100a
AppendixOF
F REHEARING OF
APPENDIX F — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, FILED APRIL 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1923
IMPERIUM IP HOLDINGS (CAYMAN), LTD.,
Plaintiff-Appellee,
v.
SAMSUNG ELECTRONICS CO., LTD., SAMSUNG
ELECTRONICS AMERICA, INC., SAMSUNG
SEMICONDUCTOR, INC.,
Defendants-Appellants.
Appeal from the United States District Court for
the Eastern District of Texas in No. 4:14-cv-00371-ALM,
Judge Amos L. Mazzant, III.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit
Judges.
PER CURIAM.

101a
Appendix F
ORDER
Appellee Imperium IP Holdings (Cayman), Ltd. filed
a combined petition for panel rehearing and rehearing
en banc. A response to the petition was invited by the
court and filed by Appellants Samsung Electronics Co.,
Ltd., Samsung Electronics America, Inc. and Samsung
Semicon-ductor, Inc. The petition was referred to the
panel that heard the appeal, and thereafter the petition
for rehearing en banc was referred to the circuit judges
who are in regu-lar active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on April 25, 2019.
					For The Court
April 18, 2019			/s/ Peter R. Marksteiner
Date				Peter R. Marksteiner
					Clerk of Court

102a
AppendixOF
G REHEARING of
Appendix G — DENIAL
the United States Court of Appeals for
the Federal Circuit, FILED APRIL 18, 2019
United States Court of Appeals
for the Federal Circuit
2017-2107, 2017-2133
IMPERIUM IP HOLDINGS (CAYMAN), LTD.,
Plaintiff-Cross-Appellant,
v.
SAMSUNG ELECTRONICS CO., LTD.,
SAMSUNG ELECTRONICS AMERICA, INC.,
SAMSUNG SEMICONDUCTOR, INC.,
Defendants-Appellants.
Appeals from the United States District Court for
the Eastern District of Texas in No. 4:14-cv-00371-ALM,
Judge Amos L. Mazzant, III.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before Prost, Chief Judge, Newman, Lourie, Dyk,
Moore, O’M alley, Reyna, Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Per Curiam.

103a
Appendix G
ORDER
Cross-Appellant Imperium IP Holdings (Cayman),
Ltd. filed a combined petition for panel rehearing and
rehearing en banc. A response to the petition was
invited and filed by Appellants Samsung Electronics Co.,
Ltd., Samsung Electronics America, Inc. and Samsung
Semiconductor, Inc. The petition was referred to the
panel that heard the appeal, and thereafter the petition
for rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on April 25, 2019.
For the Court
A pril 18, 2019
/s/ Peter R. Marksteiner
	Date 	Peter R. Marksteiner
		
Clerk of Court

